<html>
<title> - HEAD START: WORKING TOWARDS IMPROVED RESULTS FOR CHILDREN</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
                    HEAD START: WORKING TOWARDS IMPROVED 
                            RESULTS FOR CHILDREN
-----------------------------------------------------------------------------

                                  HEARING

                                 BEFORE THE

                      SUBCOMMITTEE ON EDUCATION REFORM
                                   OF THE

                        COMMITTEE ON EDUCATION AND
                               THE WORKFORCE

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS

                               FIRST SESSION
		
               HEARING HELD IN WASHINGTON, DC, MARCH 6, 2003

                              Serial No. 108-5

             Printed for the use of the Committee on Education
             and the Workforce

____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800  FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001




               COMMITTEE ON EDUCATION AND THE WORKFORCE
                    JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin		GEORGE MILLER, California
CASS BALLENGER, North Carolina		DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan		MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California	DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware		ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas			LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania	RUBE?N HINOJOSA, Texas
CHARLIE NORWOOD, Georgia		CAROLYN McCARTHY, New York
FRED UPTON, Michigan			JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan		RON KIND, Wisconsin
JIM DeMINT, South Carolina		DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia		        DAVID WU, Oregon
JUDY BIGGERT, Illinois			RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania	SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio			BETTY McCOLLUM, Minnesota
RIC KELLER, Florida			DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska			ED CASE, Hawaii
JOE WILSON, South Carolina		RAU?L M. GRIJALVA, Arizona
TOM COLE, Oklahoma			DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada			CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota			TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas			TIMOTHY H. BISHOP, New York
MARILYN N. MUSGRAVE, Colorado
MARSHA BLACKBURN, Tennessee
PHIL GINGREY, Georgia
MAX BURNS, Georgia

                      Paula Nowakowski, Chief of Staff
                   John Lawrence, Minority Staff Director


                      SUBCOMMITTEE ON EDUCATION REFORM
                   MICHAEL N. CASTLE, Delaware, Chairman

TOM OSBORNE, Nebraska, Vice Chairman	LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania	SUSAN A. DAVIS, California
FRED UPTON, Michigan			DANNY K. DAVIS, Illinois
VERNON J. EHLERS, Michigan		ED CASE, Hawaii
JIM DeMINT, South Carolina		RAU?L GRIJALVA, Arizona
JUDY BIGGERT, Illinois			RON KIND, Wisconsin
TODD RUSSELL PLATTS, Pennsylvania	DENNIS J. KUCINICH, Ohio
RIC KELLER, Florida			CHRIS VAN HOLLEN, Maryland
JOE WILSON, South Carolina		DENISE L. MAJETTE, Georgia
MARILYN N. MUSGRAVE, Colorado		
							


                            TABLE OF CONTENTS


TABLE OF CONTENTS .......................................................i

OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, SUBCOMMITTEE ON 
EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES.................................................2

OPENING STATEMENT OF RANKING MINORITY MEMBER LYNN WOOLSEY, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES. ...............................4
STATEMENT OF WADE F. HORN, ASSISTANT SECRETARY FOR CHILDREN AND 
FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES; ACCOMPANIED 
BY RUSS WHITEHURST, DIRECTOR, INSTITUTE FOR EDUCATIONAL SCIENCES, U.S. 
DEPARTMENT OF EDUCATION	.................................................7

STATEMENT OF THE HONORABLE JOHN G. ROWLAND, GOVERNOR OF 
CONNECTICUT.............................................................	9

STATEMENT OF NELL R. CARVELL, DIRECTOR, THE LANGUAGE ENRICHMENT 
ACTIVITIES PROGRAM AND HEAD START INITIATIVES, SOUTHERN METHODIST 
UNIVERSITY..............................................................28

STATEMENT OF RON HERNDON, CHAIRMAN, NATIONAL HEAD START 
ASSOCIATION AND DIRECTOR, ALBINA HEAD START PROGRAM, PORTLAND, 
OREGON..................................................................31

STATEMENT OF DWAYNE A. CROMPTON, EXECUTIVE DIRECTOR, KCMC CHILD 
DEVELOPMENT CORPORATION, KANSAS CITY, MISSOURI	........................33

APPENDIX A -- WRITTEN OPENING STATEMENT OF CHAIRMAN MICHAEL N. 
CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION 
AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES .......................51

APPENDIX B -- WRITTEN OPENING STATEMENT OF RANKING MINORITY MEMBER 
LYNN WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES .............57

APPENDIX C -- WRITTEN STATEMENT OF THE HONORABLE CIRO RODRIGUEZ, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES ...............................61


APPENDIX D -- WRITTEN STATEMENT OF WADE F. HORN, ASSISTANT SECRETARY 
FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN 
SERVICES; ACCOMPANIED BY RUSS WHITEHURST, DIRECTOR, INSTITUTE FOR 
EDUCATIONAL SCIENCES, U.S. DEPARTMENT OF EDUCATION .....................69

APPENDIX E -- WRITTEN STATEMENT OF THE HONORABLE JOHN G. ROWLAND, 
GOVERNOR OF CONNECTICUT	................................................83

APPENDIX F -- WRITTEN DOCUMENT SUBMITTED FOR THE RECORD BY THE 
HONORABLE JOHN G. ROWLAND, GOVERNOR OF CONNECTICUT .....................91

APPENDIX G -- WRITTEN DOCUMENT SUBMITTED FOR THE RECORD BY WADE F. 
HORN, ASSISTANT SECRETARY FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT 
OF HEALTH AND HUMAN SERVICES ...........................................95

APPENDIX H -- WRITTEN STATEMENT OF NELL R. CARVELL, DIRECTOR, THE 
LANGUAGE ENRICHMENT ACTIVITIES PROGRAM AND HEAD START INITIATIVES, 
SOUTHERN METHODIST UNIVERSITY ..........................................99

APPENDIX I -- WRITTEN STATEMENT OF RON HERNDON, CHAIRMAN, NATIONAL 
HEAD START ASSOCIATION AND DIRECTOR, ALBINA HEAD START PROGRAM, 
PORTLAND, OREGON ......................................................111

APPENDIX J -- WRITTEN STATEMENT OF DWAYNE A. CROMPTON, EXECUTIVE 
DIRECTOR, KCMC CHILD DEVELOPMENT CORPORATION, KANSAS CITY, 
MISSOURI...............................................................137

TABLE OF INDEXES ......................................................151



                    HEARING ON HEAD START:  WORKING TOWARDS

                        IMPROVED RESULTS FOR CHILDREN
                 ______________________________________________

                           THURSDAY, MARCH 6, 2003

                        U.S. HOUSE OF REPRESENTATIVES,

                      SUBCOMMITTEE ON EDUCATION REFORM,

                  COMMITTEE ON EDUCATION AND THE WORKFORCE,

                               WASHINGTON, D.C.






     The subcommittee met, pursuant to notice, at 10:20 a.m., in Room 2175, Rayburn House Office Building, Hon. Michael N. Castle [chairman of the subcommittee] presiding.

     Present:  Representatives Castle, Osborne, Upton, Ehlers, Biggert, Wilson, Musgrave, Woolsey, Davis of California, Davis of Illinois, Case, Kucinich, Van Hollen, and Majette.

     Ex officio present:  Representative Miller.

     Also present:  Representative Payne.

     Staff present:  Julian Baer, Legislative Assistant; Pam Davidson, Professional Staff Member; Kevin Frank, Professional Staff Member; Kate Gorton, Professional Staff Member; Sally Lovejoy, Director of Education and Human Resources Policy; Alexa Marrero, Press Secretary; Maria Miller, Coalitions Director for Education Policy; Deborah L. Samantar, Committee 
Clerk/Intern Coordinator; John Lawrence, Minority Staff Director; Ruth Friedman, Minority Legislative Associate, Education; Joe Novotny, Minority Clerk/Staff Assistant, Education; and Linda Theil, Minority Legislative Associate, Education.


OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES.

Chairman Castle. A quorum being present, the Subcommittee on Education Reform will come to order.  My name is Mike Castle, and I am the chair of this committee.  We do not have many overflow hearings here, so we are appreciative of the attendance.  But I am sorry about the lack of seating for those who are standing.

	I would like to first of all extend a welcome to Ms. Lynn Woolsey, who is the ranking member, and is new in this position of developing education policy in this country.  I consider this subcommittee to be of great importance in the development of education agendas nation-wide.  We are delighted to have Lynn helping with that.

	In addition, I would like to welcome Tom Osborne of Nebraska, who was distinguished in another field before he arrived here.  Mr. Osborne is as interested in children and mentoring and educational programs as anybody I have worked with on the committee.  Tom, we are delighted to have you in that position, as well.

	We are meeting here today to hear testimony on Head Start: Improving Results for Children.  Under Committee Rule 12(b), opening statements are limited to the chairman, which I am, and the ranking minority member of the subcommittee, which is Ms. Woolsey. Therefore, if other members have statements, they may be included in the hearing record.

	With that, I ask unanimous consent for the hearing record to remain open 14 days to allow members' statements and other extraneous material referenced during the hearing to be submitted in the official hearing record.

	Without objection, so ordered.  We will go to my opening statement.

	I do want to thank all of you for joining us here today.  I know you have a variety of interests for this rather important hearing on the impact of the Head Start Program preparing disadvantaged children for school.  This marks the first hearing to help prepare members of the committee for reauthorization of Head Start, which is scheduled for this year.

	Quality early care and education are critical for children, parents, the business community, and the success of welfare reform. Every day, approximately 12 million children and their families utilize some form of early childhood service.  The Head Start Program is the centerpiece of the Federal Government's efforts to support quality early childhood education for our nation's most disadvantaged youth.

	Since 1965, the Head Start Program has served nearly 20 million low-income children and their families.  Today, Head Start serves over 900,000 children every day, and has nearly 1500 grantees across the United States.  In my home state of Delaware, Head Start programs serve 1594 children, with state government funding an additional 464 four-year-olds.

	Head Start was conceived to offer economically-disadvantaged children access to a level of comprehensive educational, health, and social services that meet or exceed similar opportunities available to more affluent children.  The goal of the program is to provide disadvantaged students with a solid foundation that will prepare them for success in the public school system and later in life.

	While the resources spent have been significant, results have sometimes been mixed.  Research shows that children who participate in Head Start are better prepared to enter school than similar children who do not participate in this program.  This is evidence that Head Start is working.  But I believe we can do better.

	States report that between 20 percent and nearly half of all children entering school are not prepared to succeed in school, and that the typical Head Start student still enters kindergarten far below the national norm.  This achievement gap between typical Head Start students and other students is a challenge we should address, not ignore.

	Thousands of disadvantaged children pass through Head Start every year without receiving the level of academic instruction and school readiness we are capable of providing for them.  They enter kindergarten behind their more advantaged peers.  If we do not expect more from Head Start, then we are letting these children down.

	The No Child Left Behind Act emphasizes the importance of academic achievement in reading and math, and it sets forth a goal that all children become skilled readers by the end of third grade. Recognizing the important relationship between the quality of a child's early experiences and their readiness for school, states and schools are focusing greater attention on the cognitive and social development of young children before they enter kindergarten.

	Head Start and other early childhood education programs are often the first line of defense in insuring that children attain the fundamental skills necessary for optimal reading development and overall school readiness.  Last spring, the President announced the Good Start, Grow Smart initiative to improve early childhood education for millions of America's youngest children.  As part of our work to improve Head Start, this committee will consider areas in which Head Start can be strengthened to improve the quality of the Head Start experience so that every Head Start child is prepared to be successful in school.

	The Good Start, Grow Smart plan identifies the need for teachers to be well trained, the importance of aligning early childhood programs with state K-through-12 education goals, and the need for better information for parents and caregivers about the best practices in early childhood development.

	During reauthorization, the committee also will consider how Head Start programs may enhance collaboration with other publicly-funded early care and education programs.  By leveraging resources and establishing consistent program goals, the Head Start Program can become a critical component of a coordinated effort to provide high-quality early education to young children.

	Finally, this committee will review the success of Head Start in delivering results for children.  During the 1998 reauthorization, this committee made several changes to the law intended to place greater program emphasis on children's development of pre-literacy, language, and numeracy skills.  Today, there is little evidence that Head Start children are more prepared for school than five years ago.  As a result, we will seek to understand why these changes have not always translated into greater cognitive gains for children, and how we can do a better job of insuring that Head Start programs successfully deliver results.

	While progress is necessary on the academic front, other non-academic services provided to children participating in Head Start are also important.  Strengthening the academic focus of Head Start and preserving comprehensive services such as health and nutrition are important goals for Republicans and Democrats alike. Research makes clear that school readiness involves both 
academic development and social-emotional.  Without one or the other, a child is less likely to succeed in school.

	I have grown increasingly frustrated by false media accounts that Republicans wish to transform Head Start into an academic-only program that eliminates the comprehensive services currently provided by Head Start.  It is time to stop pitting the various needs of children against one another.  They are not competing priorities.  To characterize it as such is insulting and demoralizing to the thousands of staff who sacrifice their time and energy helping these children every day.

	Today, we will hear from experts who will help shed light on the Head Start Program, its strengths, and areas where it can be made stronger.  Our witnesses' unique perspectives on Head Start will offer insights that will be tremendously helpful to the members of this committee as we work to improve the Head Start Program.  We look forward to their comments.

	With that, I would like to recognize Congresswoman Woolsey, who will also make a brief opening statement.

WRITTEN OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES � SEE APPENDIX A


OPENING STATEMENT OF RANKING MINORITY MEMBER LYNN 
WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES.

Ms. Woolsey. Thank you.  As you know, this is my first hearing as the ranking member on the Education Reform Subcommittee, and I can say that I am finally a full adult here in the Congress. And I can't think of a better place to start than with the Head Start Program.

	For nearly 40 years, the Head Start Program has been a symbol of this nation's commitment to a better life through early education for low-income children.  We have documented research that Head Start is keeping that commitment.  The results of the most recent survey conducted by the Department of Health and Human Services, called Head Start FACES, shows that Head Start is doing just what it promises, giving our nation's poorest children a head start in preparing them for school.

	The FACES study shows that Head Start narrows the gap between low-income children and all other children in vocabulary and writing skills, improves social skills, leads to continued improvements in word knowledge, letter recognition, math skills, and writing skills relative to other children during their kindergarten year.  In addition, other research shows that early Head Start is producing positive cognitive impacts for children by age two.

	Does that mean that Head Start is perfect and doesn't need to make any changes?  Of course not.  Even the best program can be better.  Head Start has made great progress towards improving the education of its teachers, but more is needed.  Head Start must work to have more teachers with Bachelor's degrees in early childhood development, and we can help reach that goal by providing 
more funds for teachers' salaries and continuing education.

	We need to strengthen, not weaken, Head Start's focus on comprehensive services.  Head Start helps low-income children get ready for school by providing health services, parent training and support, nutrition, and development of social skills, as well as early childhood education.  In young children, cognitive development cannot be separated from physical growth and family support.  We should be moving towards full funding of Head Start, so that no child who is eligible for Head Start is turned away. And we should be expanding early Head Start.

	At the same time, I would also like to examine ways that would give those communities not currently filling their Head Start programs the flexibility to admit children with slightly higher incomes.  Because the current welfare program has moved many families into the ranks of the working poor, which has caused them to lose eligibility for Head Start at a time when their children most need these support services.

	All of the changes that I am suggesting build on the strengths of the current Head Start Program, strengths that have been benefiting low-income children and their families for almost 40 years.  As we move forward with this reauthorization, I hope we will keep in mind that Head Start is working.  Head Start programs produce proven results.  And there is no need to be reinventing a good early childhood program.  One already exists, and that program is called Head Start.

	Thank you, Mr. Chairman.  And I would like to ask unanimous consent to insert Congressman Ciro Rodriguez' remarks into the record.


WRITTEN OPENING STATEMENT OF RANKING MINORITY MEMBER LYNN 
WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION 
AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES � SEE APPENDIX B


Chairman Castle. Without objection, the comments of Mr. Rodriguez will be inserted into the record. 
	

WRITTEN STATEMENT OF THE HONORABLE CIRO RODRIGUEZ, SUBCOMMITTEE ON 
EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES � SEE APPENDIX C


Chairman Castle. Thank you, Ms. Woolsey, for your opening statement.  We will turn now to our witnesses.  We have two panels of witnesses today, and I will begin by introducing the first panel.

	The first person who will speak is the Hon. Wade Horn.  Dr. Horn is the assistant secretary for the administration for Children and Families at the Department of Health and Human Services.  Prior to being appointed as assistant secretary, Dr. Horn was president of the National Fatherhood 
Initiative, whose mission is to increase the number of children growing up with involved, committed, and responsible fathers.  During the Bush I administration, Dr. Horn served as the commissioner for Children, Youth, and Families, and chief of the Children's Bureau at the Department of Health and Human Services, and as the presidential appointee to the National Commission on Children from 1990 to 1993. Additionally, Dr. Horn served as an adjunct faculty member at Georgetown University's Public Policy Institute, and an affiliate scholar with the Hudson Institute from 1993 to 2001.


Dr. Ross Whitehurst is not going to testify today.  He has testified here a number of times.  He is here to answer questions.  We may hear from him quite a bit.  He is the director of the Institute for Educational Sciences in the U.S. Department of Education.  He is one of the nation's leading experts on language and literacy development in young children.

	Previously, Dr. Whitehurst held the position of assistant secretary for the Office of Educational Research and Improvement, which is a predecessor of the institute.  For those who do not understand all that, he is basically the head of education research in the Department of Education.  He has authored or edited five books and published more than a hundred papers on 
language and pre-reading development in children.

	The second person who will address this subcommittee is Governor Rowland.  Governor Rowland was first selected to the governorship of Connecticut in November of 1994.  Previously, he served three terms in the United States House of Representatives, and two terms in the Connecticut State Legislature.  Governor Rowland is the recipient of numerous awards and honors, 
including being the first governor to receive the Excellence in State Government award.  He has maintained excellence in state government generally in his governorship.  We are appreciative of what he has done there, and appreciative of having him here today.

	So with no further ado, we will hear first from Dr. Horn and then from Governor Rowland, and then the members here, who each have five minutes for a question-and-answer session that will follow.

STATEMENT OF WADE F. HORN, ASSISTANT SECRETARY FOR 
CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH AND 
HUMAN SERVICES; ACCOMPANIED BY RUSS WHITEHURST, 
DIRECTOR, INSTITUTE FOR EDUCATIONAL SCIENCES, U.S. 
DEPARTMENT OF EDUCATION

Mr. Horn. Thank you very much, Mr. Chairman and members of the subcommittee.  I appreciate the opportunity to testify before you today on the President's plan to strengthen Head Start to help insure that every child has the opportunity to enter school healthy and ready to learn.

	As you mentioned, Mr. Chairman, Dr. Ross Whitehurst from the Department of Education is at the table with me.  Also directly behind me is Windy Hill, the very capable associate commissioner for the Head Start Bureau and the Administration on Children and Families at HHS.

	As you know, Head Start was launched in 1965 as an eight-week summer program for low-income children to help them better prepare for success in school and in life.  With strong bipartisan support, Head Start has expanded over the past four decades, and now serves over 900,000 children and families each year.

	In addition to Head Start, more than 40 states and the District of Columbia now have early childhood programs of their own, many of them modeled on Head Start.  Because research has demonstrated the importance of providing comprehensive services in the preschool years, states now are involved in trying to integrate a multitude of other programs aimed at helping young 
children and their families.  All told, federal and state governments currently spend some 23 billion dollars each year for child care and preschool education, and much more than that when you consider the other health, nutrition, and welfare-related programs that serve these same children 
and families.

	The good news is that there are more resources currently available to support low-income children and families than at any other time in our nation's history.  The not-so-good news is that while children in Head Start enter school further ahead than other economically-disadvantaged children who do not get Head Start and are not enrolled in a state-run preschool program, they continue to lag behind their more economically-advantaged peers.

	Additionally, we see an alarming lack of coordination among many of the programs and services designed to meet the needs of this population.  This lack of coordination has resulted in gaps and patchy areas in our safety net, to the detriment of young children and their families.

	To strengthen the Head Start Program, improve outcomes for low-income children, and promote the coordination and integration of comprehensive early care and education services, President Bush is asking Congress to include in the reauthorization of the Head Start Act a provision that will allow interested states to include Head Start in their preschool plans.

	Under the President's proposals, states would be offered the opportunity to coordinate preschool programs with Head Start in exchange for meeting certain accountability requirements.  States wishing to participate must submit a state plan to the secretaries of Health and Human Services and Education that address several fundamental issues concerning preschool education.  The state plan must address how it will work with public school systems to develop goals for all preschool programs in the state, identify guidelines that preschool programs can use to achieve these goals, devise an accountability system to determine whether children are actually achieving 
these goals, provide professional development for preschool teachers and administrators, and help parents provide support for children to succeed in kindergarten.  In addition, states must describe how they will maintain the comprehensive range of child development services for children in 
Head Start, including the provision of social, parental, and health services.

	The President's proposal has several key characteristics that are unfortunately frequently misunderstood, misinterpreted, or overlooked altogether.  I would like to set the record straight.

	First, the President is not proposing a block grant of the Head Start funding to the states.  In fact, Head Start will continue to be managed as a federal-to-local program, except in those instances where states choose to develop plans.  Those plans would have to be approved by both the secretary of Health and Human Services and the secretary of Education, on the basis of 
comprehensive and integrated preschool services for low-income children.

	Second, any state that takes advantage of this option will be required to make a commitment to maintain the integrity of the comprehensive nature of the Head Start services, including social, family, and health services.

	Third, states that choose this option will be required to maintain their current level of state spending on preschool programs.  In other words, states will not be able to cut back on state preschool spending because they now have Head Start dollars.

	Finally, states will have to explain how they intend to coordinate the use of funds across all state and federal programs that have the purpose of promoting school readiness, as well as how they intend to administer the program.

	The bottom line for the President is school readiness--improving learning experiences, and holding programs accountable for achieving those outcomes.  Research tells us a great deal about the skills and knowledge children need to be successful in school.  Success in school is a strong 
predictor of success in life.

	As I suggested earlier, one of the reasons the Head Start Program has remained strong over the course of nearly four decades is that it has always been willing to adapt to accommodate to the changing needs of children and families.  Now more than ever, economically-disadvantaged children and their families need a strong coordinated system of early care and education.

	The time has come to allow states the option to fully integrate Head Start into their preschool education planning.  We can no longer afford to dissipate precious resources through overlapping and ill-coordinated programs.  Most importantly, we cannot afford to have children slip through the gaps that such a cobbled up system inevitably creates, particularly when children 
with the greatest need for support continue to remain below national norms on school readiness.

	Children and families deserve the best support that states and local communities can provide.  The President asks that you give states the option of integrating Head Start, our nation's leading program for low-income preschoolers, into their planning for coordinated services.

	I want to thank you, Mr. Chairman, and members of this committee for your commitment and dedication to the well-being of our nation's children.  Thank you very much.


WRITTEN STATEMENT OF WADE F. HORN, ASSISTANT SECRETARY FOR CHILDREN 
AND FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES; 
ACCOMPANIED BY RUSS WHITEHURST, DIRECTOR, INSTITUTE FOR EDUCATIONAL 
SCIENCES, U.S. DEPARTMENT OF EDUCATION � SEE APPENDIX D	


Chairman Castle. Thank you, Dr. Horn, very much for your testimony.  We look forward to having further discussion with you here in a minute, but first we will hear from Governor Rowland.

STATEMENT OF THE HONORABLE JOHN G. ROWLAND, GOVERNOR 
OF CONNECTICUT

Governor Rowland. Thank you very much, Mr. Chairman and members of the committee.  I have prepared a statement that I have entered into the record, but I would like to sum up my remarks.

	First and foremost, over these last few weeks, there have been a number of very exciting, interesting proposals and reforms coming from our administration.  Welfare reform, of course, came years ago. We have now also been looking at Medicaid and Medicare reforms, and the nation's governors have been focused on that over the last several weeks.  Maybe a little bit under 
the radar, the proposal for Head Start is now starting to seep out to the states, and many of my colleagues, fellow governors, are looking at this very exciting proposal.

	I would like to give the state's, my state's, perspective, and to share with you our initial responses.  First and foremost, this is a perfect logical response to problems that we face in our urban community.  It is a breath of fresh air to combine efforts and to utilize all the resources of the 
Federal Government and of the state government, and of our local governments as well.  It is also a logical step after Leave No Child Behind legislation.

	We received in the State of Connecticut approximately $40 million in Head Start funds, and we serve about 6,000 preschool children.  Coincidentally, we also, the state, invest about $40 million, and we also serve an additional 6,000 children in a variety of different programs.  By 
combining these efforts, we can better utilize our services and eliminate redundancy.  More importantly, we will be able to serve more families, which I think is the goal of all of our states.

	I would like to suggest to you, Mr. Chairman, the members of the committee, and to interested parties, that Connecticut would like to be the first state to accept the President's challenge. I see some tremendous benefits for our children and for our families.  Number one, I see 
greater accountability; number two, greater coordination and more flexibility; and number three, higher standards to insure that our kids have the skills to start kindergarten.

	For a relatively small state, we are very diverse.  We are the wealthiest state in the country, yet we have some of the poorest communities and poorest cities in the country as well.  As a result, we have some superior schools.  We have to put our resources where they are needed, and for the 
most part, they are utilized in the urban communities.

	But at the end of the day, I am pleased to report to you that in our fourth and eighth grades, our students are number one in math, number one in science, number one in reading, and number one in writing.  I think a lot of that is because of the focus we have on pre-K programs.  Presently, 75 percent of all public school kindergarten students participate in preschool programs.  In the last five years, we increased that number of preschool slots by over 200 percent.

	At one of our urban schools in the city of New Haven, eight out of ten kindergarten students attended preschool.  I point out that the school poverty rate there is about 65 percent.  In another urban school in Hartford, where the poverty rate is 74 percent, again, almost 80 percent of the children attended preschool.

	We are clearly giving these kids a leg up.  Clearly, we focused on those individuals, but we now have at least 15,000 families that we could serve, which is again probably twice as much as we are serving at this moment.

	The President's plan can help us get there.  The President's plan is attractive for states for a number of reasons that Wade has touched on as well.  Number one, it is voluntary.  If states do not want to participate, they do not have to.  I can tell you that we are aggressively interested in 
participating.  I have talked to a lot of my Head Start directors, and they are very interested in participating in this program.  They have begun to submit letters to me, and I will be glad to share those with you today or at another time.

	Number two, the plan is flexible.  We can target funds where they're most needed.  Something that goes on in New Haven may be different than in Hartford, and may be different than in one of the other school districts.  So flexibility is key for us to take care of our families.  It encourages partnership.  I can show you instances where we have two buildings in the same 
location.  One is the state-run preschool program and one is the Head Start Program.  We can bring all of the stakeholders together, participate, really raise the standards, and have better quality and higher expectations for our kids.

	I would like to conclude by saying that I have personally observed, unfortunately, the reality of our problems in our urban communities.  About 10 years ago in our capital city of Hartford, the Hartford High School at that time had a high school dropout rate between ninth and tenth grade of over 50 percent.  Fifty percent of those kids between ninth and tenth grade dropped 
out of school.  We left those kids behind.  We also found that the reason they fell behind is that we had social promotion.  They just pushed the kids along.  And by the time they got to ninth grade, they were 16.  They just dropped out of school.  We had more teenage girls become pregnant than actually graduate from the high school.

	After some time, we actually took over the school system.  The State of Connecticut took over and appointed a State Board of Trustees, at the suggestion and the urging of the local political officials and the local school board.  Over the last five or six years, we have increased the pre-K 
programs, started summer schools that previously did not exist, and basically set a standard stating that if you are not prepared to go from third grade to fourth grade, you have to go to summer school, and the state paid for it.

	The reason I raise that issue is that everybody was focusing on the high school saying the high school is broken.  But we knew better.  We knew what was broken could be found earlier on. We need to make sure that our kids are reading well by third grade, and that is the most important goal that we should all have in our states.

	I can report to you after five or six years of the state running the Hartford school systems, the high school dropout rate is now below 10 percent, and the reading skills and the testing of the children have increased dramatically.

	We only have one chance to educate these children.  When these students at age 16 drop out of school, we do not get a chance to say, ``Hey, listen.  We did not do it right this time.  Let's start over.''  So I am very excited, and I think my fellow governors will be excited about this initiative 
and about the flexibility and capabilities of using state taxpayer dollars � state, federal, and local � best utilized to take care not only of the young students, but also of the families as well.

	So I would say to you, Mr. Chairman and members of the Committee, give us a chance.  Give the states an opportunity, and we will show you that we can increase the quality of life for these students and for the families that we all represent.  Thank you very much.

WRITTEN STATEMENT OF THE HONORABLE JOHN G. ROWLAND, GOVERNOR OF 
CONNECTICUT � SEE APPENDIX E


Chairman Castle. Thank you, Governor.  Thank you, Dr. Horn. I will start by yielding five minutes to myself.

	Let me just say to the members here that we are probably going to have to enforce the five-minute rule fairly tightly today, because we have a second panel.  I am not sure what the floor activity is going to be.  But having said that, we have a lot of questions to ask all of you.

	And I am going to start with you, Governor.  I am going to make you sort of a trial lawyer here, if I can, because I've got a hunch that the jury is out here.  There is probably a lot of Head Start providers here who are saying, ``You know, Governor Rowland looks like a very competent and good governor, but I am not too sure about this plan of the states taking over Head Start.  I'm from a big state.  I'm from Michigan or Texas or California or someplace, and this makes me a little bit anxious.''

	Having been a governor of a small state, I tend to sympathize--not sympathize, but agree with you--in terms of what can get done.  I think some of the things you talked about � the flexibility, targeting funds, and encouraging partnerships, et cetera, make sense.  But if I were a 
Head Start provider receiving money directly, perhaps having a little more flexibility in terms of what I was doing, I might be a little bit anxious about this.

	Can you go further on that and try to allay the concerns and even fears of some of those who are presently administering programs in terms of what another level of what they may view as bureaucracy might mean to them?

Governor Rowland. Mr. Chairman, I think that's a great question.  I would be glad to respond.  I will give you a philosophical response first.

	I have been in government pretty much most of the last 22 years. My observation, having been a legislator and a member of the Congress and governor over the last eight years, is that in government, generally speaking, everyone is in favor of progress, as long as there is no change.  There is a lot of truth to that, I am afraid. People are afraid of change, and especially those of us that run programs.

	I have heard it suggested, and I have seen some of the articles that have said something to the effect, ``Well, we can't possibly let states run these programs.  They don't care as much as we do.''  I would humbly suggest that I think governors-- and I will speak for all the governors--care 
deeply about all of our children, regardless of age, but specifically these younger children, getting them ready for kindergarten.  Our sincere interest is probably far deeper than a bureaucrat from Washington that maybe has not passed through my state effort.

	The mere fact is that so many states have started pre-K programs.  We have got pre-K programs funded from local community action agencies, from the local cities and towns, and of course from the state.  The fact is that my state, as many others have, have literally matched the same expenditure that the Federal Government has made, doing the same thing.

	So I think if you looked across the spectrum of states, large and small, Republican and Democrat, you will find governors with a razor-like focus on education.  It's the most important issue that we have to contend with.  We know where the problems are, we live it every day, we are with these providers.

	I would conclude by telling you that I contacted my largest Head Start provider and ran through some of the ideas that are being proposed, and he was very excited about it.  He sent me a letter, and I will leave it with you.  It says, ``We are willing to lend our support and want to work with you in the development of this program.''  The other comment he makes, ``There is concern in Congress that some states may give short shrift to these important elements of the program if they are no longer operated under the federal program.  However, many of the Connecticut community action agency executive directors and Head Start directors I've talked with feel quite confident that you and your commissioners will be committed to developing an outstanding program.''

	I think that that speaks for all the governors.  This is not about saving money.  This is not about cutting programs.  This is about enriching existing programs, and I think that is the bottom line.

Chairman Castle. Thank you, Governor.  We will, of course, accept the letter for the record.

WRITTEN DOCUMENT SUBMITTED FOR THE RECORD BY THE HONORABLE JOHN G. 
ROWLAND, GOVERNOR OF CONNECTICUT � SEE APPENDIX F 

Chairman Castle. Let me turn quickly, if I can, to Dr. Horn. Dr. Whitehurst may want to get involved with this, also.  But part of the discussion has been that Head Start is planning to assess--and that is the key word here--the school readiness of all four-year-olds in Head Start.  Many people take the word ``assess,'' and they immediately say ``testing,'' and they suggest that four-year-olds are too young to be tested.  I am not sure, but I think that is probably correct.  But I am not sure ``assessed'' necessarily means ``testing.''

	I am very interested in matters of assessment methods insuring that the programs are working, and to hold them accountable.  In addition to the social services, which we all agree are needed, part of this is to prepare these kids for school.  How can we determine if that is being done?  What are the methodologies that could be used?

Mr. Horn. As you know, the President feels very strongly that one of the things that we need to do increasingly in government is manage by results--that is, to look at outcomes. Good intentions are better than bad intentions, but good intentions are not good enough.  We also have to determine whether our good intentions are actually having good outcomes for whomever the constituents are for a particular social program, including the Head Start Program.

	There are a lot of ways of assessing children.  There are good ways of assessing children and bad ways of assessing children.  We assess infants at one minute and five minutes after they are born. It's called an Apgar score.  Pediatricians assess children all the time in their offices.  They assess them against certain developmental norms to determine whether there's a problem in a child's development. I'm a child psychologist.  I assess children all the time in the preschool years.

	We are not talking about sitting four-year-olds down in rows of desks with number two pencils filling in bubble sheets.  What we are talking about is trying to determine a way in which we can have a better sense about whether the programs, the Head Start programs, are, in fact, achieving the kinds of outcomes and results we all want for children.  Are they developing the early 
emergent literacy skills, for example, that this Congress in 1998 indicated that we need to pay more attention to in the Head Start Program?

	With most of the tools we use for assessing young children, they experience kind of a game-like evaluation.  For example, there is the Peabody Picture Vocabulary Test that assesses the degree to which children's vocabulary is progressing. What happens is that you show four pictures 
to a child, and ask, ``show me the truck,'' and he points to the truck, if he knows the word.  It has a game-like quality to it.

	So it is not a question about whether or not it is possible to assess young children.  We do it all the time.  We do it with the FACES study that Congresswoman Woolsey talked about earlier, and we do assessments with kids in that context.  Head Start programs all across the country do assessments every day.

	There are ways of doing it that are reliable and valid, and ways of doing it that are not. What we are committed to is making sure that we engage a process where we can determine whether children are, in fact, benefiting from their experience in Head Start, and doing it in developmentally appropriate ways.

Chairman Castle. Thank you.


Dr. Whitehurst, if you can make a brief statement, because we want to try to keep moving.

Dr. Whitehurst. As Dr. Horn indicated, we are assessing children in the preschool period all the time.  Most of what we know about the effectiveness of Head Start and other early childhood programs comes from the assessment of children as they're exiting those programs.  Those assessments are done by the National Center for Education Statistics and its Early Childhood Longitudinal Study, the FACES group, and Health and Human Services We know that these 
measures can be done well and with reliability, and that they are incredibly predictive of later school success.

	So it is difficult to know how we would ever be able to determine how effective we are at the preschool level unless we could pause, ask children a few questions, see how they answer the questions, and find out whether they have learned what they need to learn to get ready for school.

Chairman Castle. Thank you, sir.

Ms. Woolsey.

Ms. Woolsey. Thank you, Mr. Horn.  Thank you, panel.  The President says he is interested in school readiness for every child, and yet his budget actually slashes opportunities for children. Two hundred thousand children lose childcare.  Five hundred and seventy thousand lose after-school care.  Head Start barely receives a cost-of-living increase.  IDEA preschool grants are frozen.  $1.2 billion of CHIP funds are not restored that could prevent states from dropping children from health coverage in the future.  And there is more.  Leave No Child Behind is under-funded by billions of dollars.

	How in the world can we trust that this new proposal is going to be supported by anything beyond words?  And how can Governor Rowland be sure that after two years, the states are not going to be fully responsible for these programs?

Mr. Horn. The point of this state option is to allow states who are interested in better coordinating activities in the preschool years to come in with a plan submitted to both the Secretary of HHS and the Secretary of Education. In the plan, they indicate how it is that they will better coordinate Head 
Start in a more efficient and effective way with other preschool services that are being delivered in 
the state.

	There are certain requirements that the state will have to demonstrate in that plan.  One of those requirements is that they must commit to maintaining at least the same level of state funding for pre-K programs as they currently spend.  So this does not let states take Head Start money and 
substitute it for state dollars.

Ms. Woolsey. Well, okay.  Let me take back some of my time and continue with the questioning.

	Then that's already happening.  Why do we have to duplicate? Why would we need_if the FACES study works, why do we need another one?  Why do we have to duplicate?  What are we looking for that we don't already know?

Mr. Horn. Well, in terms of the accountability system that the President announced within the context of Good Start, Grow Smart, the idea is to be able to determine at the grantee and local program level the degree to which grantees and local programs are achieving the proper outcomes for children.  You cannot do that with the FACES study, because it is a nationally representative sample, but it is not reliable down to the grantee or local program level.

	So the idea is to determine whether every Head Start grantee is actually achieving good results for kids. This is not a light switch test for those whom are not where we expect them to be, causing us to take your funding away if you are not achieving a certain result. It is intended to identify those grantees that may be in need of additional technical assistance so that we can provide that technical assistance so those programs can achieve.

Ms. Woolsey. All right.  Who's going to pay for that technical assistance, and where's the money coming from, and who's it going to take it away from?

Mr. Horn. We have an enormous amount of technical assistance money within the current Head Start system, and we think there is adequate resources to pay for that.

Ms. Woolsey. Thank you.  Governor?

Governor Rowland. I would be glad, first and foremost, to answer your last question.

Ms. Woolsey. Well, wait a minute.  I have a question to ask you first.  First I'd like to know.

Governor Rowland. I would be glad to answer the other ones as well.

Ms. Woolsey. Well, that's all right.  But let me do my thing, okay?

Governor Rowland. Okay.

Ms. Woolsey. This is my show.  Do you represent the governors in the Governors' Association on this question, or just a small group?  Because it's my understanding that the association has not agreed.

Governor Rowland. That is correct.  I am the lead governor on education, as appointed by the executive committee and the chairman of the National Governors' Association.  In my opening remarks, I indicated that we have been consumed with Medicaid reform.  We have just had a National Governors' meeting last weekend.

Ms. Woolsey. But on Head Start�

Governor Rowland. Correct.

Ms. Woolsey. Are you representing all of the governors on that?

Governor Rowland. If you let me finish my statement, I will be glad to tell you.

Ms. Woolsey. Well, we're running out of time.

Governor Rowland. I understand.  We have not had a chance at the National Governors' level to focus on the Head Start initiative, because it came after our meeting.

	So I am not representing the National Governors' Association. But I will tell you, to answer the last part of your question, I would be glad, I would be pleased, to be fully responsible for the Head Start programs in my state.

Ms. Woolsey. Without federal funding?

Governor Rowland. Oh, no.  With federal funding.

Ms. Woolsey. Oh, well, I'm saying I think you have to risk that once it's given to you with the President's budgets letting children down so greatly; they could let you down there, too.

Governor Rowland. Let me answer that.  I do not agree with that summation whatsoever.  As a matter of fact, since the President took office, he has increased funding to the Department of Education by over $11 billion.  He has also increased Title I funding.

Ms. Woolsey. Let me ask you another question before we hang up here.

Governor Rowland. Can I answer?

Ms. Woolsey. Okay.  My one other question is hasn't Head Start helped Connecticut meet these great records you have in education?

Governor Rowland. Absolutely.

Ms. Woolsey. And what percentage of your preschoolers were in Head Start?

Governor Rowland. Seventy-five percent.

Ms. Woolsey. Well, there you go.  Thank you.

Governor Rowland. Thank you, Ms. Woolsey.  It should be a hundred percent.

Chairman Castle. Mr. Osborne.

Mr. Osborne. Thank you, Mr. Chairman.  Dr. Horn, I would like to first of all commend you.  I think you have been involved in the fatherhood initiative.  My personal assessment is that if we had less absent fathers, it would not necessarily mean we could do away with Head Start, but it would greatly help our current problem.

	As you know, there are roughly 18 million children without fathers in our country today, and certainly most of those children live below the poverty level. These children engender some cultural poverty because of that situation.  Therefore, I know that part of this initiative is to try to 
incorporate parents.  Many times, there is only one in the Head Start Program. I wondered if you could comment on what the vision of this particular mission is to involve parents in Head Start to a greater degree.

Mr. Horn. Well, as you know, Congressman, Head Start has always been about involving parents. I think we have a very good track record of involving parents in the program.  On the issue of fatherhood, one of the things we have done over the last two years is provide some supplemental grants to local grantees to implement innovative programs reaching out to the fathers of the 
children in Head Start, whether or not they're living with the children themselves. That is to try to encourage their involvement in the Head Start Program as well.

	As part of the President's proposal, one of the things that the state would have to do would be to indicate how, under their plan, they would continue to involve parents in positive and healthy ways in both the Head Start and preschool programs in their state.

	In addition to that, a big portion of the Good Start, Grow Smart initiative that the President announced last year, is obtaining the latest research-based information about child development of early literacy skills, getting that information not just into the hands of Head Start teachers, not just into the hands of state preschool program teachers, not just into the hands of child care providers, but also into the hands of parents, whether their children are involved in any of those programs or not. This administration feels strongly, as I know that you do also, that parents are_the first and more important teachers of their children, and this is part of the Head Start philosophy.

	I think that Head Start has a long and very important history in involving parents in the program.  We' have also tried to do some innovative work in reaching out to fathers.  Under the state option, the state would have to indicate how they would continue that kind of work.

Mr. Osborne. Please say some more about involving fathers. Does this involve some type of financial incentive?  Or how is this going to happen?

Mr. Horn. There are a variety of different innovative programs that are actually occurring now in Head Start programs around the country.  There is a program called Good Guys that is getting the fathers involved, getting them to volunteer in the Head Start classroom, for example. The program also helps them in terms of family literacy efforts, so that if a father is not fully literate himself, we can help him obtain those literacy skills, enabling him to read to his child at home. The Good Guys program also gets them connected to a variety of social services programs that are in the community, programs such as employment programs, if that is necessary, and also involved in 
positive ways with child support enforcement, if that is an issue.

	So we are seeing a very interesting set of innovative efforts going on through local Head Start programs that are trying to reach out to fathers, as well as mothers, to get them involved in the early education of their children.

Mr. Osborne. Okay.  Well, thank you.  I think that's really critical.  As you know, I am interested in mentoring.  Sometimes the damage has been done by age three or four, and mentors do not really function very well until about the fifth or sixth grade.  So I believe that this is a very important 
program.

Governor, I would like to ask you a question.  Head Start includes some performance standards.  I wonder if you could comment on how allowing states to determine the standards for programs serving Head Start strengthens the programs.

Governor Rowland. Thank you, Congressman.  First and foremost, engaging the states and setting the standards, that is what it is all about.  To answer some of the previous questions before I was cut off, the states are in the business of educating children.  I am a fan of Head Start, as most governors are, but I am also a fan of being able to have some say about the standards and being able to raise the standards if I want to, or if the state, in its wisdom, would like to do that.

	One of the lines that we have in Connecticut pertains to raising expectations.  When I talked about that Hartford High School situation, I actually went and met with the principal of that school.  The principal looked at me and said, ``Governor, you don't understand.  This is the best these kids 
can do.''  I looked at him, and I said, ``Now I know what the problem is here. It's you.''  I got involved in actually removing that principal.

	We strongly believe in raising standards, meeting standards, criteria, and objective analysis.  No one should be afraid of analysis and assessment.  I know that we're all running and hiding because the Federal Government is going to take over and tell us what to do.  Head Start is a great 
program.  We can make it better.  We want the opportunity to make it better.  It is not about cutting funding.  The funding is there.

	I still have 15,000 children that I would like to serve.  We serve 6,000 with Head Start.  We serve 6,000 with other state and local programs.  There is another 15,000 that we should be serving, so that we do not end up with that high school dropout rate and the problems years later.  In getting 
our children ready and prepared to read and to learn, there should be no fear.

	And I am hearing some of the same arguments I heard about welfare reform five or six years ago.  ``Oh, my gosh. The world will end if we reform the welfare system.''  However, it is the best thing we have ever done at the state level.  This could be one of the best things we can do for children in our states.

Mr. Osborne. Thank you.

Chairman Castle. Thank you, Governor.  Congressman Case is yielded to for five minutes.

Mr. Case. Thank you, Mr. Chair.  And I want to congratulate my new ranking minority member publicly, although I am a little worried about her definition of adulthood, personally.  But I will try to get on with things.


Governor, I guess I agree with your maxim about progress and change, although I have got two maxims, too, learned from a number of years of service in state government as well.  And one is do not fix what does not need fixing, and the second maxim is be very wary of what the Federal Government offers as a choice.

	Going to the second maxim, Doctor, exactly what, under the President's proposal, are the consequences to a state or to a state Head Start Program of a decision not to take advantage of what the Federal Government offers as a choice?

Mr. Horn. If a state does not choose to submit a plan under this option, then the Head Start Program would continue to operate as it does currently, as a direct federal-to-local grantee program.

Mr. Case. There are absolutely no consequences other than that.  It's totally, fully � and I really want to make very sure of this � up to the state whether it decides, if it decies, that it likes the way that it is delivering its services through the Head Start centers, there's no consequence, direct or 
indirect.

Mr. Horn. Unequivocally, there is no consequence.  It will operate exactly the way it does currently.

Mr. Case. So those states that want to take advantage, as the Governor wants to, of this option can do so, and those states that think the system that they have is functioning the way it is, they're free to do that too.

Mr. Horn. Absolutely.

Mr. Case. I'm trying to get some sense here of what's broken.  You know, the states come to the Federal Government and say that a lot of things are broken.  ``Help us.''  And the private providers come to the Federal Government and say, in a lot of situations, ``This is broken.  Help us.''  And I 
just don't feel or hear that critical mass of complaint about Head Start.  What I hear is that Head Start is a, and maybe I'm just hearing it from my state, because things are working well.  But certainly beyond the State of Hawaii, it doesn't seem to me that there's a great dissatisfaction with 
Head Start the way that it's operating, that there is a great compulsion to change.

	You mentioned a couple of things in your testimony.  You mentioned, I think you used the term ``lack of coordination.''  I don't know why a state couldn't choose to coordinate without the Federal Government becoming involved in some kind of a reform effort.

	So I'm searching for what we're trying to fix here, because we obviously have a program out there that seems to be working pretty well.  Now, I assume your answer is going to be somewhere along the lines of ``Well, this gives the state the option, the choice, whatever, to get involved as a 
state government and hook in preschool education.''  But why isn't that something that can and is out there occurring now, without, you know, going through all of these bells and whistles?  Why are we doing this?

Mr. Horn. Well, first of all, I will address your issue about whether the governors, in fact, believe that there ought to be innovation in terms of increasing their ability to coordinate the state-operated programs with Head Start. Actually, it is the official position of the National Governors' 
Association that that be so.

Mr. Case. I'm sorry.  Say that one more time?

Mr. Horn. In fact, it is the official position of the National Governors' Association that they would like to have the opportunity to strengthen their ability to collaborate and coordinate state-administered programs with Head Start.

	I have here, and I would be very happy to submit this for the record, their policy on Head Start.  It is titled ``HR8 Head Start Strengthen and Collaboration Policy.''  It says, in part, ``Governors believe there is an increased need for greater collaboration among all programs that 
provide services to children, including Head Start.''

	It goes on to say, ``The various streams of funding for child care and early childhood programs make it difficult to encourage collaboration between Head Start and child care programs.''  It says, ``States should have the opportunity to provide direct input and monitoring, as well as 
decisions about funding new grantees, or refunding and expanding existing grantees.''

	This is from the National Governors' Association's web site. I would be very, very pleased to submit this for the record and your consideration.


WRITTEN DOCUMENT SUBMITTED FOR THE RECORD BY WADE F. HORN, 
ASSISTANT SECRETARY FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF 
HEALTH AND HUMAN SERVICES � SEE APPENDIX G


Mr. Case. I'm sorry.  The thing that you're saying is broken is the state governors saying that they want more say, influence, ability to Governor Rowland. If I may, I would like to take a crack at it. I do not think anybody is suggesting that Head Start is broken. What we are suggesting, and I think many governors will agree, is that we want to make it better.

	Why does the State of Connecticut spend $40 million in addition to what is spent by Head Start?  It is because governors and state legislatures, Republicans and Democrats alike, understand the crucial need to prepare these children as soon as possible. We have after-school programs, and before-school programs.  The days of governors showing up saying ``Give us more money'' are 
over. These are the days of governors showing up and saying, ``Allow us to be innovative.  Allow us to be creative.  Allow us to work with the federal dollars.  Allow us to be involved in the standards.  Allow us to stop the duplication of having one building with a Head Start program and another building with a city-run or state-run program, or even a privately-run program.''

	In our case, the focus is reaching out to those 15,000 kids, pre-K, that could be served, or better served, with the same funding levels.  We have tough economic conditions in all of our states.  Forty-five states have budget deficits.  You are going to see states cutting back on these programs because everybody has to take a hit.  All the more reason to be able to utilize the federal dollars and the state dollars to get these kids ready to learn and give them a real head start in life.

	We are not talking about it being broken.  This is an enhancement, an improvement, and the governors want to be a part of it.

Mr. Case. Thank you.  I would simply suggest in closing that we need to be careful when we try to fix something that's doing pretty well not to make it worse.  And that's my concern here. There's too many bells, whistles, and conditions.  We're going to end up going in the wrong direction.  
Thank you.

Chairman Castle. Ms. Biggert.

Mrs. Biggert. Thank you, Mr. Chairman.  I probably am the only Member of Congress who has worked in a Head Start program. I spent a summer many years ago, the first year of Head Start, working as a volunteer out of Hull House in Chicago.

	Now, that was a long time ago.  I have recently been visiting Head Start programs in my home State of Illinois. I have to tell you how impressed I am.  For one thing, they have come a long way, since that early time when I worked in a Hispanic neighborhood.  I spoke no Spanish, so I would run home every day and turn on Sesame Street so I could learn how to count and do some of the words to communicate with these youngsters.  They probably learned English a lot faster than I could learn Spanish, which is another thing I think that needs work.

	By going out to visit the Head Start and the Early Start centers, I found that they are really doing so many things that you are talking about. They have partnered with the community colleges to insure that all of the teachers have either a Bachelor's degree, have taken specific courses for an 
Associate's degree in accordance to what has been required since 1998.

	I, too, have concerns, particularly with the given state's financial crisis. Certainly my state is one of those that will dilute Head Start by having the other programs.  I have a real fear about that. It I so important and I think that this is such a successful program, we should just provide more funds for Head Start and have more Head Start programs, because there certainly are many more eligible.

	When the Head Start Program in my area does not have slots for children, they have home care.  They will put the children into home care and give them what they are doing within the school to provide those children the opportunity to move into a slot when it becomes available.  
They already have the technical assistance.  Vision and the hearing is so important to identify in children early so that they will not have problems, but that has been addressed. I do not hear about the expansion of that.

	They also have a fatherhood program.  In fact, they work very, very closely with all of the parents.  They have a parent council, the head of the fatherhood program.  There were many parents that were at the school the day I visited.  I do not think it was planned just because I was going to be there.  I had the ability to discuss with them and I found out they come and volunteer.

	They have book sales.  They also have the libraries that send people to come in for the children.  The parents are very, very involved, and there is a partnership with the community.  They have both a half-day program and a full-day program.  They have childcare as well, so that some of those kids that arrive at 6:00 in the morning and leave late, perhaps 6:00 at night, remain there.  The whole school is really set up with all of the educational tools.  These kids are bright, interested, lively, and really enjoying what they are doing. I think that is the most important, because they are looking at all of the educational tools that they could use.

	But again, I just really have problems with taking a successful program, combining it, and making it bigger.  It is always the funding. This is one time I think I can say the funding has really made such a dramatic difference.  We are not just throwing money into a program and thinking that 
fixes it.  I believe this does.

	This is a nutritional program.  They said that some of these kids have no food, a good meal, except for the breakfast and the lunch that they receive, or the lunch and the evening snack.  I caution you to be very, very careful that if we are going to do this plan, we must provide funding 
that is not going to let this program slip at all.

	I think I have taken up all my time.  I am sorry.  Thank you.

Chairman Castle. Unfortunately, we have a vote situation. That is part of our responsibility, too.  It may be the greatest part of our responsibility.  We have three votes on the floor.  I would like to explain, because there are a lot of guests here.  The first vote is 15 minutes, of which there are 
about 10 minutes left.  Governor Rowland will appreciate that they have decided to enforce the 15-minute rule very strictly.  If you are not there, you do not vote.  Unfortunately, we are going to have to break so we make sure we get everybody there in time.

	Then we have two more votes.  Because the first vote is a final vote on a bill, and then there will be a couple of procedural votes.  I have a hunch the second vote is going to be 15 minutes, also, but I am just guessing that.  Maybe not.  Then there will be a five-minute vote.  We may have 
literally minutes before we can reconvene here.  I do not know the schedules of our witnesses who are here and those who are going to testify in the second panel.  As soon as that last vote is over, we will try to get right back here and get into session and continue the hearing.  We probably will 
not have a lunch break.  We will just keep going until we have another vote pattern or something of that nature.

	But I am going to predict that we will be gone for at least 30 minutes now, or perhaps even a little bit longer, unfortunately. I hope that does not inconvenience people too very much.  If you want to take a little break or get lunch or whatever, we will come back and do what we can.  I apologize to the witnesses.  Hopefully, you will be able to remain and we'll be able to resume with those who have not yet had a chance to do their questioning.

	So with that, we stand in recess until the votes are complete.

	[Recess.]

Chairman Castle. We will resume the subcommittee meeting. I apologize.  The votes worked out as we expected, so we are back when we expected to be back.  We are going to take people as they come back in order to keep things moving, because we do have another panel.  We are starting to lose time.  People have other appointments.  So we will go now to Mr. Davis for his five minutes.

Mr. Davis. Thank you very much, Mr. Chairman.  And I want to thank you and the ranking member for arranging for us to have the opportunity to participate in this hearing.  I was noting that my colleague had not returned yet from Illinois.  But had Representative Biggert been here, I wanted to say how fortunate I was that she had come to my district to visit Hull House.  And that may have helped to shape her views, and I appreciate them very much.

	Gentlemen, let me ask you, my assessment suggests to me that Head Start has been and consistently continues to be the most effective of all the programs that I watched develop as I was a young person dealing with the civil rights movement, the citizen action, the war on poverty, that of all the programs that emerged during that time, Head Start has been evaluated by many as being the most effective and the most consistent.  And I know that there are some people who talk about the inability of some children to reach national norms as a concern and consideration.

	Let me just ask, do we have any expectations when children who have been significantly deprived are expected to reach or catch up to national norms?

Mr. Whitehurst. Consistent with the philosophy that was expressed in the No Child Left Behind Act, there is both reason to hope and reason to believe that children can learn and be taught, and that socioeconomic background is not a limit on what children can achieve.  To use the President's phrase, we cannot get into the soft bigotry of low expectations.  We need to believe that children from low-income neighborhoods can learn letters of the alphabet.  They can learn the meaning of words.  They can learn to communicate successfully with others.  If we do that, they will prosper and do well in school.

Mr. Davis. So when we talk about standards and evaluate and compare programs that might be located in certain type neighborhoods, isn't it an indictment of them, or is it a criticism of them when they're characterized as not having been able to come up to the standards or to reach national norms?

Mr. Horn. Well, first, let me be clear.  My perspective is that Head Start has been an effective program, and that Head Start does, in fact, generate gains for children who are enrolled in Head Start.  These gains are superior to children from similarly economically-disadvantaged backgrounds who do not get an opportunity to enroll in Head Start or a state preschool program.

	However, the research also shows while they do make gains, they continue to lag behind their more economically-advantaged peers.  Rather than seeing that as a club with which we should bash Head Start programs for not doing well enough, what we ought to do is see it as a challenge for us to try to do even better.

	That is what this proposal is about.  It is not about using it as a club, but as a challenge.  If we are serious about leaving no child behind, then we ought to say that means poor kids too. We should not leave them just a little bit behind; we should not leave them behind at all.

	This is about working together with the Head Start community and other systems within the state to have better outcomes for children.  That is the point- how can we achieve better outcomes for kids.

Mr. Davis. Governor Rowland, let me just ask you, if the states are given Head Start without performance standards, without any additional funding, and given the fact, as we've already heard, that many states are experiencing serious budgetary difficulties, deficits, and other kinds of constraints, do you think that there might be any possibility that states might attempt to shift and 
move around or manipulate some of the moneys to plug up holes and gaps that might appear elsewhere in the budget?

Governor Rowland. I will be glad to answer your question with a question.  Why would we do that?  I say that because the most fundamental responsibility of state government, the most fundamental responsibility and the primary responsibility of our state legislatures, is to educate our children.  The question was posed whether I would be supportive of the state taking over Head 
Start, and I said we would be glad to.

	I think what needs to be noted is what one of the press people asked me at the break, ``Well, why are you interested in this?''  I said, ``Because we are interested in making sure that every child has the same capabilities, the same experiences, and the same head start.''

	Now, the question I want to ask is that if Head Start was so perfect � and I am a huge supporter of Head Start, I have been for the last 20 years � why would some 42 states over the last half-dozen years start up their own state-funded programs that are pre-K, focusing on literacy, focusing on reading, and certainly very similar to the goals of Head Start?

	My point is that to suggest- and governors Republican and Democrat will come together on this- that why we would want to consolidate a program or take over a federal program so we can do less?  There isn't a governor in this country that wants to do less for children or less for education, even in tough budgetary times. As long as you have minimum standards, as long as the funding is coming in from the feds, which it will, I can better utilize those resources.

	Right now in Connecticut, Head Start is 88 percent utilization.  Why is that?  Why is it only 88 percent?  Why isn't it a hundred percent?  The answer is because some of the other day care programs are full-day or year-long or more convenient. The reason for that is we are now in a post-
welfare reform society.  Perhaps 10 years ago, before welfare reform, having your child come home at noon or 1:00 was okay.  But now, in my state, with 40,000 people off of welfare and working, they need a year-around or a full day care facility.  Head Start in that particular city or town may not fit the bill.

Mr. Davis. Let me just- if I could conclude, Mr. Chairman, by asking, with the new emphasis on the additional focus on testing-and I know you've indicated that you didn't think that individuals might shift anything around, or that everybody wants to make the most effective use.  And I think all of that's great conversation.  I come from a state where we have school districts that get three times as much money as other school districts.  You know, one district might get $5,000 per pupil.  That's what they spend.  Another one might spend 15,000.  And so good intentions, I think, are always wonderful.

	Do you think that there is any possibility that any of the money that is needed for the new focus on testing might be shifted from parental involvement activity, which I think is one of the most effective instruments of Head Start_Chairman Castle. Mr. Davis, could you finish?

Mr. Davis. I've concluded, yes.

Chairman Castle. You have concluded?  You have no question?  Okay, good.

Governor Rowland. I will give a 30-second response.  All of our programs, either Head Start and/or our own state-funded programs, have a real focus on involving the parents.  In many cases, the mayors and first selectmen, the superintendents of school are involved.  We have local councils that are intimately involved in all aspects of the program in their location.

Chairman Castle. Thank you.

Ms. Majette.

Ms. Majette. Good morning.  Thank you.  Good morning, gentlemen.  I represent the 4th District in Georgia, which some people call suburban Atlanta.  And I'm also a product of the public school system in New York, and have children in the public school system in Georgia.  And my concern is that we are not really focusing on being able to help parents prepare their children for being 
educated in the public schools.  I know that Head Start has a component that addresses this issue, and there's also the Even Start Program.  But it's my understanding that the Even Start Program is going to be basically cut out.

	My concern is how we are going to continue the process, which I know works, of having parental involvement: of making sure that parents are properly prepared to prepare their children to be educated?  What can you tell me about how that is going to be incorporated in the Head Start Program, given the fact that Even Start is going to be gone?

Mr. Horn. Well, Head Start has always had parental involvement as one of its major components.  A piece of that is not just parents volunteering in the classroom, but also determining what kinds of needs parents have so they can be effective teachers to their children.

	That is not going to go away under the President's proposal. There is a requirement that states that choose this option must, as part of their plan, indicate several things about parents.  Number one, they have to indicate how they would continue to provide parent involvement under this state option.  Secondly, they would have to state how they would continue to provide 
comprehensive services through Head Start.  If they exercise this option, they must provide these social services not just to the children, but also to the parents.  It would also require that the states publish whatever information they have about outcomes for kids in various centers, so that parents 
can take that into consideration in terms of where they want to place their children in terms of preschool experience.

	I think that the President's proposal is built on the assumption that parent involvement is very important, and that we want to make sure that if states exercise this option, they will continue to see parent involvement as a critical aspect of what they do.

Ms. Majette. Well, I think that's a key point, though.  You keep saying "if" states choose that option.  I mean, you've said this is going to be an option.  It's not something that's going to be provided state-by-state.  As the Governor observed earlier, the states don't always operate with the 
same wisdom.

	And so I'm concerned that by making this sort of a choice, the either/or, that some states will not make the right choice, and that will work to the detriment of children and parents.  Am I not understanding what you're saying?

Mr. Horn. That is incorrect, Congresswoman.  Under the President's proposal, if a state does not choose the option, then the program will continue to operate as it currently operates, which includes a requirement in the local Head Start programs under the parent involvement aspect to both get parents involved in the program, and also to deliver services to the parents.  None of that is going to change.

Ms. Majette. It's not going to change, but it's not going to be enhanced, given the fact that the Even Start Program won't continue to operate?

Mr. Whitehurst. Let me correct that information.  In fact, the President's budget proposal for 2004 continues funding for Even Start.  There has been no proposal to eliminate the Even Start Program.

Ms. Majette. All right.  I have another question, if I still have time remaining.

Chairman Castle. Certainly.  One more question would be fine.

Ms. Majette. With respect to the changes that are being proposed by the administration, how will this affect migrant children?  If they move from state to state, will they have to be recertified as they move from state-to-state? How are they going to be affected by this?

Mr. Horn. The migrant Head Start Program would remain as it currently is, and would not be part of the state option.

Ms. Majette. So the states won't have to make that kind of a choice.

Mr. Horn. No.  Under the President's proposal, the migrant Head Start Program would continue to operate exactly as it is now.

Ms. Majette. All right.  Thank you.

Chairman Castle. Thank you, Ms. Majette.  We are going to move on to the second panel, because we have been held up.  We would love to have another round of questions, but unfortunately, time does not allow it today.

	Let me thank you all.  We know you have significant schedules, Dr. Whitehurst and Dr. Horn.  Governor Rowland, thank you for coming down from Connecticut and joining your former House comrades here.  We appreciate your participation as well, and we will obviously absorb all that you said, as well as your written statements as we continue to look at Head Start reauthorization for sometime later this year.

	So with that, you stand excused, with our thanks.  The second panel will start to convene.  The staff will start to put up the names.  It will take just a few minutes.  Then we will go right into that next panel with the statements of the witnesses. We have sort of a standing recess here for just, 
hopefully, a couple minutes.

	[Recess.]

Chairman Castle. The government actually delivered. We actually made that change in two minutes.  I would just like to give us a little credit for it, since we are faulted for everything that happens out there.

	We welcome our second panel.  We are sorry you had to wait.  As you know, this, unfortunately, happens, but we are going to go right to you.  I will go through introductions quickly.

	Our first witness in this panel-and I think they will be testifying in the order in which they are sitting facing us-is Ms. Nell Carvell of Southern Methodist University.  Ms. Carvell is the senior advisor and director of an adjunct faculty at Southern Methodist University's Learning Therapy Program.  Ms. Carvell's experience includes nearly 30 years of classroom instruction, 
training, and therapy.  She is the author and developer of the Language Enrichment Activities Program, known as LEAP, and that has been implemented at the Cone Head Start Center.

	The second witness will be Mr. Ron Herndon, and is the chairman of the National Head Start Association, probably known to many people in this room.  Mr. Herndon has been serving as the chairman of the National Head Start Association since 1993, and previously served as the association's vice president and president of the National Head Start Directors' Association.  As 
chairman, he has represented the views of the Head Start community to Congress, the administration, and the public.  Since 1975, he has been director of the Albina Head Start Program, which is a full-day program serving more than 400 children from Portland, Oregon, and the surrounding areas.

	Mr. Dwayne Crompton has joined us.  He is the executive director of Karing for Children is our Main Concern Child Development Corporation, which is the longest name of any corporation we have had before us in the last year or two.  Mr. Crompton has served as director of KCMC, a not-for-profit child care development agency, since 1980.  Previously, Mr. Crompton acted as 
director of a child care agency, and was a school administrator and an elementary and preschool teacher.  While director, Mr. Crompton has significantly expanded KCMC by developing early childhood partnerships, and creating a family and child development resource center.

	Obviously, the same basic structure will apply.  Each of you will have five minutes to testify, and then the members who are present will each take five minutes for questions and answers.  We will start with you, Ms. Carvell.

STATEMENT OF NELL R. CARVELL, DIRECTOR, THE LANGUAGE 
ENRICHMENT ACTIVITIES PROGRAM AND HEAD START INITIATIVES, 
SOUTHERN METHODIST UNIVERSITY

Ms. Carvell. Thank you, Mr. Chairman and members of the committee.  I appreciate the opportunity to appear before you and discuss the federal Head Start Program.  My testimony focuses on two major points.

	First, I will show how a successful Head Start program in Dallas incorporating a language-rich curriculum produced outstanding results for children from poverty, and how hard data backs this up.

	Second, such a language-rich curriculum complements existing Head Start programs, including the health, nutritional, and other valuable social services that Head Start currently provides.  It does not take away from them.


Mr. Chairman and members of this committee, you do not have to be reminded that children who start behind stay behind.  Particularly at risk of falling behind are children from low-income families who have less access to academic resources than their better-off peers.

	In an attempt to reverse this trend, in 1990, the Texas Instruments Foundation teamed with Head Start of Greater Dallas to establish a model preschool, the Cone Center.  The Cone Center is for four-year-old children in one of Dallas' most economically-depressed neighborhoods.  It is an 
area plagued by both high rates of crime and unemployment.

	During the center's first two years, from 1990 to 1992, the foundation funded a comprehensive array of services beyond those usually found in a Head Start center.  It offered a year-around program, extended hours, a full-time staff that included a nurse practitioner and two social workers, a parent employment program, and increased staff benefits and salaries.  These services were beneficial to many and resulted in gains by the Cone children in various 
developmental areas.  But data revealed after two years that the children were no more ready for elementary school than those who had not benefited from the Cone services.

	In 1993, the foundation approached Southern Methodist University to create a pre-reading curriculum for Cone.  The result is the Language Enrichment Activities Program, LEAP.  This is a research and scientifically-based program.  It is age-appropriately interactive, and it is consistent 
with Head Start's focus on emotional and social development.  LEAP aligns with the Head Start performance standards and with the NAEYC accreditation standards.

	Among preschoolers, vocabulary, letter knowledge, phonological awareness, and social and emotional factors all have a significant impact on later success in school.  A language-rich preschool curriculum focuses on developing the crucial pre-literacy skills.

	In addition to reading to the children every day, teachers include language in a variety of activities, including games, pictures, experiences, and interactions with the children.  These activities serve to build vocabulary and phonological awareness.  They build knowledge of letters 
of the alphabet, and a basic awareness of math and science concepts, like measuring and counting and sorting.  By incorporating counting and word games, nursery rhymes, fairy tales, and creative play in learning centers, children learn oral language in a child-centered environment.  Most important, the knowledge and skills gained through the curriculum increases the children's chance for success in kindergarten and beyond.

	Children who took the Iowa Test of Basic Skills, the ITBS, after their year at Cone and at the end of kindergarten prior to the implementation of LEAP scored on the average of the 20th to 30th percentile on a nationally standardized test.  Last year, the new test, the Stanford 9, was given 
by Dallas school district at the end of kindergarten.  And the children who had completed their year at Cone and been through kindergarten scored between the 75th and 87th percentile.  This is well above the national norm.

	In 2001, 85 percent of the third graders who attended Cone could read at or above grade level.  Only 66 percent of Dallas's third graders who had not attended Cone could read at grade level. In 2002, the results were similar, with 90 percent of the Cone children reading at grade level 
at the end of third grade, and 74 percent of the others.

	On the TAAS, which is Texas Assessment of Academic Skills, students who attended Cone scored an average of 15 percentile points above their peers at Frazier Elementary, who had not attended Cone.  In fact, in 2001, a hundred percent of the third graders at Frazier passed the TAAS.

	If you look at the result of the performance of the Cone children at Frazier, it really contributed to Frazier Elementary earning the coveted rank in Texas of ``exemplary'' as an elementary school.  This is an exceptional feat in light of the fact that 98 percent of the families in the Frazier Elementary School district are low-income.

	The success of LEAP at Cone has led various groups across the country to adopt LEAP.  As of May 2003, approximately 45,000 children will have benefited from this curriculum.  The children are in about 1100 Head Start and public school classrooms.

	Now, while most of these classrooms are in Texas, teachers and children in several other states have also embraced LEAP, including Alabama and California, where the California Reading and Literature Project is implementing LEAP in 125 classrooms.

	So as Head Start reauthorization moves forward, the goal should be for each at-risk child to enter kindergarten, prepare to read and to learn.  Through data, LEAP has been modified and approved.  It is proven effective.  It is replicable.  It could be replicated across the country.  It could 
form a valuable key to opening the door to a quality preschool experience for our nation's children.

	This concludes my remarks.  I appreciate the opportunity to be here, and I will be glad to respond to questions.

	
WRITTEN STATEMENT OF NELL R. CARVELL, DIRECTOR, THE LANGUAGE 
ENRICHMENT ACTIVITIES PROGRAM AND HEAD START INITIATIVES, SOUTHERN 
METHODIST UNIVERSITY � SEE APPENDIX H


Chairman Castle. Thank you, Ms. Carvell.  We appreciate your testimony, and we will get to the questions in a minute.

Mr. Herndon.

STATEMENT OF RON HERNDON, CHAIRMAN, NATIONAL HEAD START 
ASSOCIATION AND DIRECTOR, ALBINA HEAD START PROGRAM, 
PORTLAND, OREGON

Mr. Herndon. Thank you, Dwayne.  Thank you, Mr. Chairman, Ranking Member Woolsey, and indeed, the entire subcommittee and the entire Congress for the longstanding and bipartisan commitment you have made to Head Start.  For nearly 40 years, Members of Congress and administration officials have worked side-by-side with the historic community to make important improvements to meet the challenges facing the program.  We fully expect that this reauthorization will involve the same considered review that has been the hallmark of past reauthorizations.  We are confident that an objective assessment of Head Start will conclude what we ourselves have determined, that Head Start provides real and meaningful benefits sustained over time to our 
nation's neediest children and families, and that we can always do better.  We are proud of what Head Start stands for today.  At the same time, we know we continually will face challenges related to insuring quality and the provision of comprehensive services, expanding the program to meet the needs of changing families, and coordinating and collaborating with the growing network of early 
childhood programs.

	I will use the balance of my time to briefly address issues I have been asked to focus on, including the success of the Head Start Program, ways in which the program can be improved, and recommendations for the future of Head Start.

	First, I will discuss the success of Head Start.  Head Start stands out as one of the most researched, evaluated, and monitored government programs.  It is fair to say that the now voluminous body of evidence concludes that Head Start is successful in achieving this primary 
mission, which is to prepare young children who live in poverty for school.  The findings indicate that Head Start graduates not only are ready for learning when they begin school, but they continue to achieve while in school.  Indeed, the government's own reports and studies, including the most 
recent FACES and the most recent HHS Head Start monitoring report, have found that Head Start programs provide high quality, comprehensive services to children and families they serve.  We believe this is rooted in the program's design, which recognizes that at-risk children need comprehensive services in order to become school-ready.  The program offers an array of services, 
with a strong emphasis on reading skills, mental and physical health screenings, immunizations, and nutritious meals.

	Although Head Start is generally thought of as a program that primarily serves children, it actually is a program that serves families.  This success also is rooted in the willingness of the Head Start community to conduct the critical assessments of the program that have led to the important quality enhancements made over the course of the last decade.

	There are ways in which the program can be improved.  Despite the impressive accomplishments of Head Start, NHSA and the entire Head Start community are the first to say that we can do an even better job on behalf of children and families.  In fact, throughout its history, Head Start has embraced change and has never shied away from the kind of critical assessments 
that have sparked the innovative and quality improvements that are central to the success of the program. That is why, in the context of this reauthorization, we are making several specific recommendations we believe will help increase the quality of the services provided by Head Start 
to the nation's at-risk children.

	We agree with those who have suggested that we need better-trained teachers in Head Start classrooms.  At the same time, we recognize this really is a resource issue.  How can we attract and retain highly-trained qualified teachers, when we cannot pay the salaries these teachers deserve?  Rather than just throw up our hands and say it cannot be done, we look forward to working with interested Members of Congress to design innovative solutions that will help us enhance teacher qualifications.

	The Head Start community also recognizes that we should always strengthen collaboration and coordination with other programs serving the same population at the state and local level.  Just let me say here, it is a myth when people tell you that Head Start does not collaborate.  We probably have over 60 collaborative agreements in my home town, from everything from the 
Portland Trail Blazers, to Nike, to the county, to the city, and to the down-by-the-riverside missionary Baptist church.

	Finally, we come back to the issue of resources.  The simplest and surest way for Congress to improve the quality of the Head Start Program is to provide adequate funding so that Head Start can continue to meet its important goals.

	This brings me to my final point, the future of Head Start. Let me be clear.  NHSA shares the goals of the administration and others to enhance the literacy and language components of Head Start, and to improve the coordination of Head Start with state preschool and child care programs.  
At the same time, it is our position that these goals can be met within the structure of the current program.

	I have to say that we remain puzzled as to why the administration is resurrecting recommendations that have been soundly rejected in the past, namely, shifting Head Start to states, and moving the program out of HHS to the Department of Education.  We must also ask why the administration is recommending such a radical and risky scheme now, particularly when HHS is in 
the midst of a major review of Head Start, as mandated by Congress during the 1998 reauthorization. Apparently, the administration has decided it does not need the data from this major, multi-year impact study now underway to know whether or not Head Start works.

	Instead, based upon what we believe is anecdotal evidence and a few hunches, the administration has decided Head Start does not work and should be dismantled.  We have strong evidence that Head Start is working, and as we await findings from the impact study authorized by Congress, we have to ask, ``Why make such dramatic changes now?''  We respectfully suggest that 
Congress reject the administration's scheme, and instead work to provide resources that will enable Head Start to enhance teacher qualifications and serve more eligible children.  That is the end of my prepared remarks.


WRITTEN STATEMENT OF RON HERNDON, CHAIRMAN, NATIONAL HEAD START 
ASSOCIATION AND DIRECTOR, ALBINA HEAD START PROGRAM, PORTLAND, 
OREGON � SEE APPENDIX I


Chairman Castle. Thank you very much, Mr. Herndon. Mr. Crompton.

STATEMENT OF DWAYNE A. CROMPTON, EXECUTIVE DIRECTOR, 
KCMC CHILD DEVELOPMENT CORPORATION, KANSAS CITY, 
MISSOURI

Mr. Crompton. Thank you, Mr. Chairman, vice-chairman, and members of the committee.  I am Dwayne Crompton, executive director of KCMC Child Development Corporation in Kansas City, Missouri.  We serve almost 3700 children in about 15 counties in Missouri.  We administer Head Start, Early Head Start, and the Child/Adult Care Food Program.

	From my 25 years in operating Head Start, I can unequivocally say that Head Start works.  I would like to quote from Secretary Tommy Thompson's report that was submitted to the Chairman, Committee on Education, saying that 85 percent of the programs were found to provide quality services to children and their families.  Any non-compliance findings were not serious in nature 
and corrected within 90 days.  It would suggest to me that Head Start is not broken.  We should not destroy this program be devolving it to states, throwing out its performance standards and gunning its commitment to comprehensive services.  Instead, we should improve Head Start and Early Head 
Start.  We should make sure that every poor child in America has access to the excellent benefits that Head Start offers.

	Head Start has had a history of collaborations, and at KCMC, we have collaborations with an impressive array of organizations from all segments of the community, ranging from the local mental health centers to the Department of Transportation.  We have Head Start classrooms in five of our local schools, and direct partnerships with more than 15 school districts.  With community support, we developed two innovative programs that bring Head Start and other childcare providers together to provide quality, full-day, year-round services for children from working families. In this partnership, we are leveraging Head Start dollars with United Way, with the City of Kansas City, 
with the State of Missouri, and with the philanthropic and private community.

	Despite our successes with collaborations, we are not able to partner with many organizations that we ought to.  The barriers to such collaborations do not come from Head Start.  They originate in the under-funding of the potential partners or state-imposed regulations.

	Let me just cite for you a few examples from my home state.  We have a small state-funded preschool program, but these services do not go far enough to meet the needs of all eligible children.  In Missouri, income eligibility for childcare subsidy is one of the lowest in the country � 17,000 dollars for a family of three.  Just last week, the Missouri General Assembly Appropriations Committee voted to completely eliminate the Children's Health Insurance Program, jeopardizing the welfare of 77,000 children.

	Kansas City's Head Start also has made commendable strides in achieving quality outcomes for children.  A recent study conducted by Dr. Kathy Thornberg of the University of Missouri, in conjunction with the Kauffman Foundation, found that 85 percent of our Head Start graduates 
exceeded kindergarten teacher expectations for incoming kindergarten pupils.  Such an outcome would have been impossible without qualified and motivated teachers.

	In my program, 49 percent of our teachers have a BA or BS degree, 38 percent have Associate's degrees, and one has a Master's degree.  Overall, 90 percent of my teachers meet or exceed the Congressional Professional Development requirement mandate.

	Qualified teachers are central to the successful outcomes for Head Start children and for program performance accountability. Congress must continue to mandate quality teaching and provide resources so that we can not only have the best, but that we also can retain the best.  We believe our emphasis on early literacy also contributes to successful outcomes for Head Start graduates. We have a comprehensive literacy plan consisting of professional development, teacher training, resources and materials and experiences and activities that support parental involvement.

	Now I want to emphasize a very key point.  Comprehensive services are the heart and soul of Head Start.  Comprehensive services make it possible for us to reach out to America's poorest children and bring positive change to their lives and their families.

	Head Start families live in very difficult and challenging circumstances.  In our program in Kansas City, 31 percent of our Head Start parents have less than a high school diploma, 54 percent of our parents earn less than $15,000, 33 are under-employed, and 77 percent of our children are 
from single-parent homes.  Clearly, the needs of poor families are complex.  We must avoid a one-size-fits-all solution.  That is why Head Start is housed in the Department of Health and Human Services.

	I also feel that the Head Start Program should and must be held accountable.  Already we are monitored every three years by a federal review team to insure that the quality of our programs meet the Head Start standards.  We also have the Head Start Outcomes Framework, where we have developed and established bench marks, indicators, and ways in which to measure the performance of our kids.  Any new assessment proposal for accountability not be created unless there is a deliberate and public process that brings early childhood experts and others to the table to discuss how our children should be assessed.

	As state budgets are cut and services are scaled back, we need Head Start now more than ever before as a stabilizing early childhood force in poor and urban rural communities.  Let this reauthorization be an opportunity to once again affirm the success of this national treasure, and to expand the programs benefit to every poor child and family across America.  Thank you.

WRITTEN STATEMENT OF DWAYNE A. CROMPTON, EXECUTIVE DIRECTOR, KCMC 
CHILD DEVELOPMENT CORPORATION, KANSAS CITY, MISSOURI � SEE APPENDIX J

Chairman Castle. Thank you, Mr. Crompton.  Let me thank all the witnesses, and we will go to questions.  I will yield five minutes to myself.

	I do not want to get into an argument, but Mr. Herndon, you did make the statement � I think I wrote it down correctly � ``The administration has decided Head Start does not work and should be dismantled.''  I totally disagree with that.  I have talked to many people in the administration who are extraordinarily supportive of Head Start.  I understand that you disagree 
with some of the changes being proposed.  For that reason, you may reach that conclusion.  I want to make sure that it is nothing that anybody I know of, either here at this committee or the administration, stated.  It is a pretty unified concept that Head Start is both needed and works extremely well.


Mr. Herndon. Excuse me, Congressman.  Would you like me to amplify?

Chairman Castle. No.

Mr. Herndon. Okay.

Chairman Castle. I will get to you, though, with other questions, then you can respond to it.  I am not cutting you off. I just want to go in a little bit of an order here.  Let me go to Ms. Carvell first.

	You suggested that the program which you have, which obviously, I do not know much about, is going beyond the par in terms of preparing kids for school.  You said it was replicable.  Is it replicable, or are there aspects of that program, either in terms of finances or personnel, that make it not quite as replicable all over the country in all the Head Start programs that concern many people here?  Could it simply be done with the necessary funding which comes from the Federal Government or state governments now?

Ms. Carvell. We have sites in about six states right now that are using this program.  It has been replicated successfully.  It is very inexpensive.  The cost of it, I think, is in the written document.

	For me, the key is teacher training, and we do have a lot of teacher training with the program.  We have worked with many teachers who only have a CDA, and we also work with teachers with Bachelor's degrees.

	So yes, it is replicable.  It does not seem to make a difference the degree that the teacher has.

Chairman Castle. I will have to read a little more about it and learn more about it.  I have gotten very, very involved with education research, and I worry about things being able to be replicated and used in other places.  It is nice to have these programs that work, but they are not of a lot of 
advantage to the committee unless we can make sure that they can work all over. That is very important.

Ms. Carvell. We had a trial in 1990.  We had a grant to try it in four sites in the state before we replicated it anyplace else, and it was highly successful.

Chairman Castle. All right, Mr. Herndon.  Get ready.  This is your moment.  Obviously, you can comment on the first statement that I made.  But I am a little bit concerned about one of the items that I think was in your written testimony.  I do not know if you testified to it or not.  It is that the 
National Head Start Association is advocating for an increase in the eligibility standards at a higher income level, I believe is the way it is stated.  My understanding is, and I have heard it from witnesses today, that there is not enough slots now to accommodate the children who are in need, 
with the funding issues.  In fact, Mr. Crompton, I think, mentioned that in his state, they are pulling away some of the funding.  A lot of the states are doing that.  I am reading about day care not being funded, Head Start � type state programs not being funded at this point.  So I am concerned about 
that as well.

	The question becomes, is this something that we can really do at this point, or should we concentrate on serving that population which we all agree has the greatest need and making sure they are accommodated?  If we can get to expansion at some point with a better economic recovery, should we do it that way?  If you want to comment on the first thing I stated, proceed, but 
as I said, I do not want to pick an argument.  I just wanted to make that point, and then you can comment on the other.

Mr. Herndon. Well, let me do it in reverse order, Congressman.  We think it really depends upon how Congress feels about the commitment that it has made to low-income communities and to Head Start, particularly.  In 1990, Congress said that it would provide funds that would allow Head Start to serve all eligible children by 1994.  That is a promise that Congress made that it has not kept.  We feel that when you look at the success of Head Start in working with low-income children, in many ways, it is almost as if you found a Salk vaccine for polio.  The question is, do people want the Salk vaccine to cover 50 percent of the children, or 30 percent of the children?  Do you want to invest in a Salk vaccine, or do you want to invest in iron lungs, crutches, and hospital beds?  It really is a political decision about what the country wants to do.  

Chairman Castle. Not to cut you off, but you would agree with me that the most important population we need to serve is the lowest income population.

Mr. Herndon. No, sir, I would not.  Income guidelines that frequently are used to define poverty in this country are too low.  Head Start programs frequently have to turn away mothers who qualify for WIC.  We are forced to tell them, ``You make too much money to get into Head Start.''  

Chairman Castle. We are going to argue now.

Mr. Herndon. Uh-oh.

Chairman Castle. I am not trying to put words in your mouth.  But you are basically suggesting that there are greater needs in the higher-income population than there is in the lower-income population.

Mr. Herndon. I do not think that you understood me.

Chairman Castle. I think what you are really saying is that the population that needs to be served is still very low-income; is that correct?

Mr. Herndon. I am saying that we have come up with an artificial definition of low-income.  It really does not describe what poverty looks like in this country.  It should  be expanded, because there are several families who make enough to qualify for WIC.  It is inconceivable to me that a policy-maker could say that a mother qualifies for WIC, but she cannot get into Head Start because she makes too much money.  We have artificially reduced what poverty looks like in this country.

Chairman Castle. We are not agreeing, but I think we understand each other, at least.  You did not respond to the other point.  Mr. Crompton wants to make a point, and then we are going to go on to Ms. Woolsey.

Mr. Herndon. The other point is about the Head Start being dismantled.  I think that it has already begun to occur.  If you take a look at the training program that Head Start has had for years, Head Start has had contracts with organizations that provide training to make sure the programs can retain quality and can address national concerns.  That system has been and is in the process of being dismantled.  Training programs at this time, Congressman, while we sit here, these training programs have been told they cannot come to state association meetings.  They can't come to regional association meetings and provide training right now.  That training program, federal officers are being told right now they cannot come to state association meetings or regional association meetings and give updates on Head Start or provide training.  The most cost-effective way to do it is being dismantled.  There is nothing in the proposal from the administration that says the quality and the performance standards would have to be a part of what states do.

	Right now, and even when states had money, there were only three states that said that their preschool programs would have to meet federal performance standards.  Yours was one of them.  The were Delaware, Washington, and Oregon.

Chairman Castle. Right.  Now we are arguing, which I was trying to avoid.  But that is a long stretch to take that portion that is your concern and make the statement that the administration is trying to dismantle Head Start.

Mr. Herndon. I believe that, sir.  We disagree.

Chairman Castle. We totally disagree on that.  Then let us go to Mr. Crompton.  I am sorry, but I could not disagree with you more.  Let us go to Mr. Crompton.

Mr. Crompton. I just wanted to address briefly the issue on the eligibility criteria, based upon just a little different factor.  We have families who come in who are eligible for Head Start, and based upon TANF and families having to go to work, we have many mothers who immediately transition 
because of the requirement to work.  We have mothers who will make a dollar more than what is required, and who are no longer eligible for Head Start.

	All we want to do is to provide a continuum, to continue to support those families so that they have an opportunity to be successful.  What we can document for you is that many of those families end up not taking the promotion, not taking the raise, and recycling through the program.  I do not think that is the intent of the TANF program nor the administration, not to have families be successful and have productive careers.

Chairman Castle. Thank you, Mr. Crompton.  Ms. Woolsey?

Ms. Woolsey. Maybe we can have more than one round of questions.  There's just so much on my mind right now.

	I don't know if you know it, but I was a welfare mom 35 years ago.  And I used to turn down my raises at work because it would just come out of my welfare.  I didn't really turn down, but I got nothing from them.

	And it's much different to be poor in Kansas City, Missouri, than it is to be in Petaluma, California, or Marin County, California, that I represent, one of the most affluent districts in the country.  I mean, you are poor, because you can't afford to live there.  And so we've got to look at 
that, and I agree with you totally.  Both of you.

	Okay.  Mr. Crompton, you've had such, you both have.  And Ms. Carvell, you've been wonderful, so � I only have such a short time.  You've been successful with collaboration and coordination within your programs within your communities.  So what I'd like to know is what do we need to do or what would you need to do to be able to expand your Head Start programs using 
these efforts, and what do other communities need to do so that � and what do we need to do in reauthorizing Head Start to make it so that it works with collaboration.

	And one of the controversies is do you collaborate or not? Well, obviously, you do.  So talk to us some more about that.

Mr. Crompton. Well, let me just again suggest through their own findings that the Federal Government has demonstrated evidence that collaboration is taking place in Head Start throughout this country, not just in Kansas City.  But we have had an opportunity to have some fantastic collaborations to help us expand and improve our Head Start Program.  One of the most recent 
ones, which Senator Bond helped us with, is our new Metro Link Head Start facility.  It was built with the federal transportation funds, city funds, and private and philanthropic funds, to create a Head Start site that takes care of two of the major issues around working mothers: transportation 
and quality early education and care.  This center opened recently and is full, and it is having a tremendous amount of success.

I also want to address the issue around public schools.  We work hand-in-hand with the public schools.  As a grantee, we also fund two major school districts' Head Start programming.  We are partnering, and we are creating these relationships.  I guess what is troublesome to me is that it is implied that we are not working with school districts, and that we are not working with state programs.  In our state, we are collaborating on how to have effective preschool and pre-K programs.  I would say to you that Head Start has taken the lead in the state with developing those quality initiatives.

Ms. Woolsey. So Mr. Herndon, I'd like you to respond to that, too.  But is there anything we should be doing that would make it easier to collaborate?  I mean, would the President's proposal make it easier?

Mr. Herndon. No, ma'am.  No, ma'am.  Again, I firmly believe that when you ask about reauthorization and what should be done, I wanted to make sure that Head Start remains in Health and Human Services.  One, that it remains a federal program to local communities, rather than go through the states.

	When the states were a little bit better funded, and when the economy was better, they started preschool programs.  The gentleman from Connecticut, his state-funded program is called Head Start Like.  I said, ``Do you mean l-i-t-e or l-i-k-e?''  They do not require Head Start performance standards as a quality control component.  They do not.

	As I was saying earlier, there are only three states that have adopted performance standards.  The others have not.  So the commitment to quality is one of the reasons that Head Start has been so successful, and it is comprehensive.

	So Congresswoman, one, we need to make sure that we stay with Health and Human Services.  Two, if people want to expand the number of children that are served and say that all Head Start programs can serve children birth through five, and not to have to write a special grant to Early Head Start, if your needs assessment says there is a need to serve children birth through 
three, that you can serve them.

	Also, I will discuss the income guidelines.  This is extraordinarily important, because I can't play Solomon and say that a family who makes $2,000 more than the income limit needs less than a family who meets the income level.  I do not think any of us are that smart or that bright.  The 
income guidelines have to be expanded so the programs have more flexibility to meet the needs of the working poor.

Mr. Crompton. Madam, may I also say to you that many of the issues around collaboration really rest with the state and current regulations and programs that are under-funded.  One of our major experiences has been while Head Start has continued to grow; some of our partners have not received additional resources.  They have been placed on hold.

Ms. Woolsey. Well, for example, give us an example of a partner.

Mr. Crompton. Well, I could even take the Child Care Subsidy Program, wherein the State of Missouri, the subsidies have not increased over the last five, six years.  While our cost increase and Head Start's increases come along, the state has remained stagnant.  Someone has to fill that gap.  It makes it almost impossible for many programs to partner when you have programs that are under-funded and do not receive increases.  That does not allow you to maintain a quality program.

	Also, there are the regulations the states govern.  That is some of the fear I have in moving it to the state�in order to do it, the state would weaken it.  When you are talking about flexibility, it scares me.  Flexibility, to me, means that you're going to weaken it so that you can do more.  And that is really frightening, and that is what I think would happen.  Most states do not have the kind of early childhood standards as does Head Start.

Chairman Castle. Thank you, Ms. Woolsey.

Mr. Wilson.

Mr. Wilson. Thank you, Mr. Chairman.  I appreciate you being here today.  I regret that we had a vote, and the confusion. With Dr. Horn and Governor Rowland, this has been a very interesting discussion.  I particularly have an interest in the district I represent.  It is similar, actually, to 
Connecticut in that I have very wealthy communities, but I also have pockets of very disadvantaged persons.  I am particularly familiar with it, because my wife is an alternative school teacher and works with children.  It just tears your heart out, but they keep on working hard, and progress is being made.

	Head Start has an excellent reputation in our state and South Carolina.  A couple of questions I have are that it is my understanding that there is a plan underway to assess the school readiness of all four-year-olds in Head Start.  A concern I have, is that the four-year-olds are too 
young.  All three of you can answer this.  Are there other ways to insure that the programs are working and can be held accountable?

Ms. Carvell. I think that when you consider assessment, it is an emotional issue.  The reality is most assessment around four-year-olds is like a game.  It is a game.  They point to things.  They listen to a story and tell it back to you.  It is checking to see where they are when they come in and 
what have they learned during the year.

	Much of assessment is a checklist, so there is still portfolio assessment.  There are a lot of ways to go on.

Mr. Wilson. Thank you.

Mr. Herndon. Congressman, currently, every Head Start program in this country already assesses children several times a year.  Most of the researchers that I am aware of who have devoted their lives to psychometrics will tell you with a national test that they are trying to create, that they doubt the validity of that instrument.  Certainly, the administration plans to have all Head Start four-year-olds tested in September, or this coming fall.  The folks I have talked to said you have to pilot something like that for years before you ever figure out if it is valid.

	I will conclude on this comment.  I have friends in one city, which will remain unnamed, where this is being piloted.  One of the questions on the test involves showing the children, these four-year-olds, different trucks, and they ask the child which one is a camper.  Somebody smarter than me would have to explain to me the significance of a camper.  Especially when we have 
children who live in certain places where they have never seen a camper in their lives.  You are trying to suggest to me that if I answer it incorrectly, that it means there is something wrong with that child or the program or the teacher that did not teach the child what a camper is?

	So we have very strong objections to the test that is being created.  What happens to children who don't speak English?  Head Start serves children all over this country.  Is it to suggest that one test is will be able to tell you something significant about either the child, the program, or the teacher, when in fact, most of the differences in performance that we find at Head Start are from classroom-to-classroom, not program-to-program?  We think it is a waste of money, and that time and resources are indeed precious.

Mr. Crompton. Mr. Congressman, I guess my major concern is that there are experts who do assessments around early education and care.  It appears that there has not been a roundtable discussion, a pooling of the experts who understand child assessments to help in the development of this process.  I think the elimination of having a public discourse, just based upon what Mr. 
Herndon is saying, about the cultural, ethnic, community, and geographic differences that exist, to not have a roundtable of a group of experts who understand assessment come together to make specific recommendations does a disservice not only to Head Start, but to children in general.

Mr. Wilson. Well, I think you are all very clear as to where you are coming from.  I do not mean to incite you on the next question.

	But anyway, an important aspect of Head Start is parental involvement, with parents as the first and primary educator.  I do like the concept as expressed by Governor Rowland of the state option.  Indeed, in the county I represented in the State Senate, where I was on the Education Committee 17 years, we have great differences between rural and urban/suburban communities.  
Now in the congressional district I represent, it is just so extraordinary that indeed, one size does not fit all does not even come remotely within the same county.

	So I want to know what you think about the President's plans as to how it involves parents, and whether the state option would be favorable or not, or whether it needs to be changed or not.

Mr. Herndon. I do not think that the state option has been well thought out, and for this reason.  A careful examination of Head Start teaches us that certain things are responsible for its success.  One, you have national quality performance standards, but local communities have the option of 
how they go about meeting them.

	The state option does not require national performance standards at all.  In my state, Oregon, the liberal Democratic governor two years ago began to try to influence the regional office to cut back on the amount of Head Start dollars per child, which would have limited the quality of the Head Start Program.  Now, our state just cut $2 million of the state funding for Head Start.  I have a fairly good idea what is going to happen if our state received those dollars.  If they try to cut back on quality in good times, I can just about imagine what is going to happen now if that money is given to the state.  Our state is, as a friend of mine says, broke as the Ten Commandments.  When they get that money, I know what they are going to do with it, and it is not about quality.

	So there are no quality assurances.  There certainly is not a provision for parent involvement.  In Head Start, parent involvement does not just mean selling pepperoni or showing up for Valentine's Day.  They make decisions about funding.  They make decisions about hiring.  They make decisions about termination.  I have not seen one state preschool program in this country that said, ``We are going to allow low-income parents make decisions about who gets hired, who gets terminated, and the budget and the curriculum in the program.''  That is parent involvement at Head Start, and that is why we have 800,000 parents who volunteered last year.  You cannot find that in state preschools.

Mr. Crompton. Mr. Congressman, may I just twist that question?  One of the concerns I have, is have we done a careful examination of state pre-K programs?  I think that needs to occur.  I think that when we see the landscape across this country, what we will find is poor quality programs, 
lack of adequate funding, many programs where there is no credentialing for teachers.  In fact, in childcare programs in the State of Missouri, to be a teacher, you need to be 18, free of tuberculosis, and breathing.

	I do not think that is what we are talking about as we intend to talk about successful children, moving them to succeed and be ready in school, not reducing the standards.  I do think that the question of a careful examination of current pre-K programs in this state would be due diligence on the part of this committee.

Chairman Castle. Thank you, Mr. Wilson.

Ms. Davis.

Mr. Wilson. Thank you, Mr. Chairman.

Mrs. Davis. Thank you.  Thank you for being here.  Thank you, Mr. Chairman.  I'm sorry that I wasn't able to return for the rest of the discussion earlier.  And a lot of my questions were to try and get some clarification for what is being proposed, but perhaps I could flip that around.

	This follows on some of the other questions.  Is there anything that you're precluded from doing that you find ``We're not allowed to do this.  We're restricted one way or another''?  Now, I understand you can't serve all the children that you would like to serve.  But is there anything specific that you're actually precluded from doing?

Mr. Herndon. Yes, ma'am.  This comes back to serving eligible children, given the current income guidelines.  There is a tremendous need for Head Start services for children birth through three.  The only way that a Head Start program can serve those children now, is to compete nationally for 
a special grant in Early Head Start, which is really a waste of time.

	All of you should simply say that all Head Start programs can serve children birth through 
five, and the only thing you would have to show is a needs assessment in your local community that says there is a need for it.  These children are not being served now.  Then we could begin to serve this population in which it is necessary.  It is bad enough for children three through five, but for families with children birth through three, it's almost impossible to get any quality care.

	I have to keep saying ``quality,'' because we think that is what makes Head Start a little bit different.  So yes, ma'am.  If that were done during this reauthorization, it would help many, many Head Start programs and communities.


Mrs. Davis. Do you have any sense, though � I mean, there are thousands of children who are three to five who aren't being served already.  I mean, we're hearing many children fall through the cracks.  And maybe you can kind of clarify from your perspective.

Mr. Herndon. Sure.


Mrs. Davis. Who are those children who fall through the cracks?  Are they children that are just not being reached culturally, geographically?  Who are those kids?  I guess what I'm concerned about is if we start focusing on birth to three, then are we talking about such an expansion of a program?  Because we could certainly find children throughout the country who would fall into 
that category.

Mr. Herndon. No, ma'am.  In certain cities in certain states, the state has gone into the preschool business.  They have attracted four-year-olds.  

Mrs. Davis. Pre-K, yeah.

Mr. Herndon. Absolutely.  If I had the flexibility to begin to serve this other population, then I would not have these vacancies in my program, and this area of tremendous need could be addressed.


Mrs. Davis. Any idea cost-wise what we're looking at in that area?

Mr. Herndon. Well, obviously, services to children birth through three, they are more expensive.  You only have eight children in a classroom, compared to 20 with three to five.  But I think with the cost, my dollars are going to be the same.  If you give the same dollars to me in Portland, Oregon, and if I said to you well, the school districts and some other non-profits, they are picking up most of the four-year-olds.  There is a tremendous need for birth through three, I could take those same dollars and serve that population, along with the dollars that I am getting from childcare, which we do, and that I am getting from city, which we do, along with dollars that we are getting from the state.  So we would be able to use those collaborative agreements and 
arrangements to address this population, because the four-year-olds are already being served.

Mr. Crompton. Let me suggest how important are the community needs assessments.  We spend thousands of dollars conducting these needs assessments, and then we are not really utilizing them or we are not able to follow what the assessment says.  The assessment, it may indicate that in our 
community, zero to three is the area where we need to be serving, and that is where the need exists.  It may say zero to five.  It may talk about how we do rural and urban.

	Over the course of the years, it has always kind of been that we have had these needs assessments and not always had the opportunity to do what they have directed to meet the needs of the community about supporting the children.

Mrs. Davis. Now, perhaps some of my colleagues might think, then, that the administration's proposal would incorporate that in the thinking in some way.  And I just want to be sure that we're clear here of at least what your concerns are.

Mr. Herndon. No, ma'am.  I do not think so.  Because most states do not put very much money into serving children birth through three for the reason you just mentioned.  They will put a little bit of money for childcare.  But because it is more expensive, you will find very few preschool programs that serve children birth through three.  I do not think so.  States are not putting money in that end of it.


Mrs. Davis. With my remaining time, Mr. Chairman, I would like to say that we ought to pay our preschool educators what we pay our university professors, because in fact, they're the ones that actually shape the learning that's going to take place for the future.  We may not be able to do that.  
But I think that in the Head Start Program, at least they have to pay 2 percent, basically, across the board.  

Mr. Crompton. Well, there are funds that actually go to what we call quality improvement, and part of that is around compensation and benefits.  One of the critical pieces � and that is why I guess I am somewhat perturbed around the matter of what is broken.  The current legislation allows for you to move teachers, to provide professional development and training, to achieve the AA 
degree and above, release time and support, while paralleling compensation so that you are striving to meet what the districts in your community would pay a teacher of like training.

	That is intact.  That is in place.  We do not need to lose that. We need to keep that quality improvement funds intact that continue to support that kind of professional development that will have the kind of positive outcomes that we are talking about for children.


Mrs. Davis. So is there a difference, then, in the two?  I had the understanding that perhaps what they were establishing was a ceiling, as opposed to a floor, with the amount of dollars that would be going towards training, towards compensation, et cetera. Is that not the case?

Mr. Herndon. I think it is, from what I understand.  They have already talked about putting less money into technical assistance, and training technical assistants.  From what I understand, they are proposing taking, about $70 million that are currently appropriated for training technical assistants, 
and use that for other parts of this plan.

	Again, technical assistance is a key part of retaining quality in Head Start.  As I said earlier, steps have already been taken that have weakened technical assistance in Head Start which show us that when people ask, ``Are they dismantling it,'' it is already occurring.  Now we cannot get the 
access that is necessary.  For me, in my program in Portland, Oregon, ma'am, the only way I can get technical assistance is if I am a deficient grantee.  I have to be broke before the technical assistants can come in and help my program, and/or that they are addressing some of the President's 
initiatives.

	Well, the President's initiative does not talk about mental health.  It does not talk about housing.  It does not talk about comprehensive services for children.  So if I want help in any of those areas, I cannot get it, because the administration has already told them, ``You cannot go into 
that cat's program unless he is a deficient grantee.''  That is my opinion.  That is a misuse of what the technical assistance program is supposed to be for Head Start.

Mr. Crompton. Let me just say that it is difficult, at times, to understand the direction.  A percent of that 2 percent, which would be a reduction in current funding, would go to states to allow them to write their plans regarding how they would administer Head Start.  There is a direct impact to 
carry me if my state decided to do that.  Well, we are going to lose some of that training money, because the state is going to get 1 percent.  That is right off the top.

	In terms of the quality, that is yet to be determined in terms of how it is written.  It is still vague.  I guess we want to insure, or at least have the opportunity, to insure that the quality funds stay and remain available to support the quality work of Head Start.


Mrs. Davis. Thank you.  Thank you, Mr. Chairman.

Chairman Castle. Thank you, Ms. Davis.

Ms. Majette.

Ms. Majette. Thank you, Mr. Chairman.  Thank you all for being here this afternoon.  I represent Georgia's 4th District, which some people call suburban Atlanta.  It is Decatur and east of the city of Atlanta.

	Fortunately for those of us in Georgia, we have a very strong pre-K program and an early education program.  But I'm concerned.  I share your concerns, Mr. Herndon, regarding the ability of individual states to pick up the ball and run with it if we do not continue to proceed with Head Start and the standards that have been set.

	According to the information I have, research from the Children's Defense Fund, if you compare what some states' preschool requirements are versus Head Start, it's clear to me that the administration's plan and proposal really lowers the bar.  And obviously, lowering the bar in a situation where we are already not able to meet the needs of so many children, for me, is unacceptable.

	But if you look at this information, there are at least five states that have pre-K programs that have a lower teacher credential requirement than Head Start.  Sixteen states have pre-K programs that have no class size requirements.  Twelve states have pre-K programs requiring less in-service training than Head Start level.  Ten states have pre-K programs that have no child/staff ratio requirements.  Twenty-one states have pre-K programs that require less monitoring than Head Start provides. Fourteen states have pre-K programs that do not have any comprehensive service requirements.  And only three states require as much as a Head Start level.  Ten states only require 
pre-K programs that have standards for health and safety codes.  And I guess the list goes on and on.

	And so I share your concern, and I would really like � I guess my question would be, given the fact that this is even being proposed, is there a way that you see that we can get the states in line with what they would need to do if Head Start does not continue to operate in the manner that we 
know has already been successful?

Mr. Herndon. No, ma'am, I do not think so.  I think that is the reason that most people talk about sending programs to the states.  They accept the argument that states know better how to do this, and they should have the flexibility to address state problems.

	No state has come up with a program that has come close to matching Head Start in terms of quality.  They have, I am sure, their various reasons, funding and a lot of other reasons, why they have not.  Again, it gets back to the central question if it is not broke, why fix it?  You have the premiere program working in early childhood education in this country.  Why this rush to send it to states?

	The research is already in.  Ed Ziegler, one of the founders of Head Start, emeritus professor at Yale, did research on this at least three years ago.  He looked at preschool programs and compared them to Head Start.  He came up with the exact same conclusion.  They do not match Head Start in terms of quality.

	So it is kind of baffling to us, when we hear the administration talk about research-based decisions, the research has already been done.  Head Start is far higher quality, far more comprehensive, and it has national performance standards, and the one part that you alluded to, monitoring.

	We run a full-day program in Oregon.  The only time I saw anybody from the state show up was a day care certifier who came by once a year to make sure we had the fire hydrants in place, the garbage was in the right spot, and we did not have a hundred kids in a closet.  Other than that, there was no state monitoring.

	When people make these claims that somehow, the states are going to be able to replicate Head Start quality, where is the beef?  They have not done it up to this point in time.

Ms. Majette. Thank you.  Do I have time for one additional question?

Chairman Castle. Sure.  We will allow you one additional question.

Ms. Majette. And this goes back to the previous panel that was here.  My concern, well, I have several.  But certainly, I have a concern that parents are not being involved in a way that really does make a difference in the education of their children. I know you alluded to that, the component of 
parental involvement with respect to Head Start.  And I just wondered, can you tell me at all what your perspective is on the Even Start Program, and is there some way that we can strengthen Head Start to help educate parents so that they can be more involved in the education of their children?

Mr. Herndon. A major part of what we do is to work with parents to help them not only become stronger with their children, but how to become advocates for their children when they leave us and they go into public schools.  We introduce parents, saying, ``Here is the principal,'' of the school 
that your child is going to be going into.  ``Here is the teacher.  Here is the curriculum.''

	I think that where Even Start is available, Head Start programs are already working with it, and you will frequently find that siblings of children in Head Start are also involved in Even Start, and we certainly do want to strengthen those ties.

	Now, we agree with you that every effort that can be made to strengthen parent involvement should be made.  Again, I do not see that as a part of this initiative.  I do not see anyone saying that when this money goes to the states, if it would occur, that we are going to allow Head Start parents to make decisions about how this money gets spent, who is going to get hired, what the curriculum is going to be, where the centers are going to be placed.  Those are some of the essential parts of parental involvement in Head Start.

	Again, Congresswoman, states have had an opportunity when they had money to make parental involvement a significant part of their preschool programs.  They have not done it.  Is someone going to suggest to me now that they do not have money, and if you send Head Start to the states, that all of a sudden, the states are going to see the light and have all this parental 
involvement with these billions of dollars?  I do not think so.

	Let me just say this in conclusion.  I have a friend of mine, a Hispanic friend of mine.  He said, ``Ron, this seems rather strange at a point when Hispanics have become the largest minority in the country.  If you look at the Head Start Hispanic population, and the black population, you are 
looking at maybe 60-plus percent of the children in Head Start.''  He said, ``Does not that seem strange that now all of a sudden, these funds are going to go back to the same states that these populations have had a difficult time getting services from for the last several years at this critical point when their communities are being devastated by unemployment? The one program that 
parents did have some control over and have exercised wonderful stewardship in now will be taken out of their influence.''

	That is the question that others will have to wrestle with. But the timing does trouble me.

Ms. Majette. I share your concern.  Thank you.

Chairman Castle. Thank you, everybody.  At this time, we are going to bring the hearing portion of this to a close.  I will give Ms. Woolsey an opportunity to make a closing statement.  I will make a brief closing statement, and then we will be completed for the day.

	But let me thank the witnesses very much for being here, whether we agree or disagree, I thank you very much for being here.  We do appreciate your testimony, and we do appreciate, by the way, your written statements.  We also appreciate all the guests and others who participated and were able to stay through the day.

	With that, let me turn to Ms. Woolsey.

Ms. Woolsey. Thank you, Mr. Chairman.  And thank you, panel. You were wonderful.  Ms. Carvell, I wish we had more of you.  It's just that you weren't quite so controversial.

	But I think we can learn from you and what your LEAP program has done can be and must be incorporated in every early childhood program, if at all possible.  I mean, it doesn't have to be called LEAP.  But we know those are the standards we're working for.

	So quality performance standards, a higher level of eligibility so that the working poor are not left out of what's going on.  Full funding.  I mean, we can't do any of this unless we're willing to put, you know, open our pocketbooks and put our money where our mouth is.

	General flexibility.  I heard that, that the flexibility that the President's proposal is maybe that they think they're putting place is what you want right now based on a program that actually has proven itself.  So that's where the flexibility needs to be, and based on the needs of the 
community.

	Again, as usual, compensation.  Pay those that are involved with the most important commodity in our world, in our country: our children, our babies, our future.  Let's pay them what they're worth so that we value our children.  And training the educator, training the parents.

	That's what we're looking at.  And that's what you've been saying.  Head Start, for the last 38 years, you came here.  I mean, that happened because it became a � this country finally became aware that children who start behind stay behind unless. And Head Start is the answer to ``unless.''  
And now we just need to make it so that your programs can be available for everybody that needs it, not just the limited number that we have right now.

	I thank you very much.  We'll work together, because we will be reauthorizing Head Start.  Thank you.

Chairman Castle. Thank you, Ms. Woolsey.  Let me just say a couple things here.  First, with all due respect to all of us in this room, Members of Congress and you who are running programs, and those who are working in programs, we are really here to see what we can do for these kids, 
ultimately.  I do not mean to be too altruistic in that, but that is really what it is all about.  I happen to agree with Ms. Woolsey on this.  I think that early developmental stage of these kids is as important as anything that we can do for young people in this country.  I believed that when I was 
governor; I believe it now.

	I have worked with these programs.  I am a strong believer in the Head Start-type programs, because I think it is needed.  The Even Starts, the Early, whatever it may be.  It is very much needed. I think it is really true.  I do not think I am alone in that. I think it is true of everybody in 
this room, I think it is true of all Members of Congress, too, and I think it is true of the President and others.

	But there is some serious division about exactly how we get there, or even, for all that matters, how well all these programs are working.  There are a lot of studies on this.  You could probably put 20 studies on the scale over here and 20 over there saying something is working or not.  My own sense of it is that Head Start programs by and large work well when you have good 
administrators in states that are caring about it and they work well.

	When you have a state that does not pay a lot of attention to early childhood � and I do not think the Federal Government really can ever give it the oversight that is necessary.  You have poor providers running it, then I think in that case, it does not work as well as it should.  Frankly, I 
would like to know more about that.  I am interested in some sort of assessment program.  Not testing, per se, and not whatever some of the flaws are in some of the existing programs.  I do not know how long it would take to develop.  I am not a child educator or a psychologist.  But I do believe that there should be some sort of comparable programs to see what we are really doing with these kids.

	I visit many schools.  I have been in every public school in my state at one time or another.  Most of them, I have been in many times.  I have seen those children coming into school in kindergarten and first grade, and I can tell pretty quickly after sitting through an hour's class whether they are probably going to make it or not.  Did we really help them enough when they 
came into our schools?

	I am not sure that we are doing all that we should, to be very candid.  I am really not.  I am not faulting anybody here or anybody in any of the programs out there.  I just think we have to do even more.  Yes, I agree that money could be an aspect to this.

	I have got to tell you it is not just the fact that we had a very articulate and good governor here today.  That, to me, is a fairly convincing argument.  I do not want to take too much time on this. But in regard to the President's state options plan, somebody said it provides no guarantee of 
financial services.  Yet the plan provided to us by the administration, as it came to us, makes clear that the states would have to develop state standards for preschool, including plans for professional development, and be required to implement an accountability system, both of which would have to be approved at the federal level by the Departments of Health and Human Services and Department of Education.

	In addition, states would be required to, at a minimum, maintain current levels of spending for early childhood, continue to serve the same number of eligible children, and maintain all comprehensive social services.  If those things are accurate, I think it would answer a lot of the questions.  Now, one may doubt whether they are accurate or not, but I think it would answer a lot of the questions.

	Frankly, I have seen some Head Start programs, even in my state of Delaware, which are not anywhere near as well-run as they should be.  That also concerns me.  As to the shift from HHS to Education, I am not entering into that fray at this point.  But the whole state proposal, I think, is 
an important issue.  The whole business of testing and the assessments is significant.  I believe there is sufficient money.  In fact, I think not all of the money has been used for training in technical assistance.

	I know that there have been literacy training programs that have been boycotted by Head Start providers.  I disagree with that. I think it is important that those things take place and come across whatever splits there are.  We need to make these programs work.  I think you have sensed 
this.  I have not been entirely happy with this hearing this morning and afternoon, because I think it has been more, to some degree, divisive than it has been healing in terms of resolving what the problems are and moving forward.

	We basically all know about the funding issue.  We know it is not going to change dramatically.  We know the states are cutting back. But the question is, how are we going to use these funds?  How can we make it work better?  How can we replicate good programs?  How can we make sure that those standards and assessments in the good programs are being lived up to by 
everybody?  Ultimately, how can we handle the children?

	As I said, I think we all in our heart want to do this. It is a question of how we are going to get there.  But by God, we are going to have to work at it in order to get there.  Hopefully, we can continue to work together.

	[Whereupon, at 1:27 p.m., the subcommittee was adjourned.]













APPENDIX A -- WRITTEN OPENING STATEMENT OF CHAIRMAN 
MICHAEL N. CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES 












APPENDIX B -- WRITTEN OPENING STATEMENT OF RANKING 
MINORITY MEMBER LYNN WOOLSEY, SUBCOMMITTEE ON 
EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES












APPENDIX C -- WRITTEN STATEMENT OF THE HONORABLE CIRO 
RODRIGUEZ, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES













APPENDIX D -- WRITTEN STATEMENT OF WADE F. HORN, ASSISTANT 
SECRETARY FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF 
HEALTH AND HUMAN SERVICES; ACCOMPANIED BY RUSS 
WHITEHURST, DIRECTOR, INSTITUTE FOR EDUCATIONAL SCIENCES, 
U.S. DEPARTMENT OF EDUCATION













APPENDIX E -- WRITTEN STATEMENT OF THE HONORABLE JOHN G. 
ROWLAND, GOVERNOR OF CONNECTICUT












APPENDIX F -- WRITTEN DOCUMENT SUBMITTED FOR THE RECORD 
BY THE HONORABLE JOHN G. ROWLAND, GOVERNOR OF 
CONNECTICUT











APPENDIX G -- WRITTEN DOCUMENT SUBMITTED FOR THE RECORD 
BY WADE F. HORN, ASSISTANT SECRETARY FOR CHILDREN AND 
FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES











APPENDIX H -- WRITTEN STATEMENT OF NELL R. CARVELL, 
DIRECTOR, THE LANGUAGE ENRICHMENT ACTIVITIES PROGRAM 
AND HEAD START INITIATIVES, SOUTHERN METHODIST UNIVERSITY











APPENDIX I -- WRITTEN STATEMENT OF RON HERNDON, CHAIRMAN, 
NATIONAL HEAD START ASSOCIATION AND DIRECTOR, ALBINA 
HEAD START PROGRAM, PORTLAND, OREGON











APPENDIX J -- WRITTEN STATEMENT OF DWAYNE A. CROMPTON, 
EXECUTIVE DIRECTOR, KCMC CHILD DEVELOPMENT CORPORATION, 
KANSAS CITY, MISSOURI


151

TABLE OF INDEXES



Chairman Castle, 2, 6, 9, 11, 13, 14, 17, 19, 21, 23, 25, 26, 27, 28, 31, 33, 35, 36, 37, 38, 40, 42, 45, 
47, 48
Governor Rowland, 9, 12, 15, 16, 17, 18, 21, 24, 25
Mr. Case, 19, 20, 21
Mr. Crompton, 33, 37, 38, 39, 41, 42, 43, 44, 45
Mr. Davis, 23, 24, 25, 44
Mr. Herndon, 31, 35, 36, 37, 39, 40, 41, 42, 43, 44, 46, 47
Mr. Horn, 7, 13, 15, 17, 18, 19, 20, 24, 26, 27
Mr. Osborne, 17, 18, 19
Mr. Whitehurst, 14, 24, 27
Mr. Wilson, 40, 41, 42
Mrs. Biggert, 21
Ms. Carvell, 28, 35, 36, 40
Ms. Majette, 26, 27, 45, 46, 47
Ms. Woolsey, 4, 14, 15, 16, 17, 38, 39, 48



cxxxviii

31


</pre></body></html>
